<html>
<title> - H.R. 1406, WORKING FAMILIES FLEXIBILITY ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          H.R. 1406, WORKING FAMILIES FLEXIBILITY ACT OF 2013

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 11, 2013

                               __________

                           Serial No. 113-13

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-251                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                    TIM WALBERG, Michigan, Chairman

John Kline, Minnesota                Joe Courtney, Connecticut,
Tom Price, Georgia                     Ranking Member
Duncan Hunter, California            Robert E. Andrews, New Jersey
Scott DesJarlais, Tennessee          Timothy H. Bishop, New York
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Richard Hudson, North Carolina         Northern Mariana Islands
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 11, 2013...................................     1

Statement of Members:
    Courtney, Hon. Joe, ranking member, Subcommittee on Workforce 
      Protections................................................     4
        Prepared statement of....................................     6
    Roby, Hon. Martha, a Representative in Congress from the 
      State of Alabama...........................................     3
    Walberg, Hon. Tim, Chairman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brantley, Andy, president and chief executive officer, 
      College and University Professional Association for Human 
      Resources..................................................    30
        Prepared statement of....................................    32
    DeLoach, Karen Steinhauer, bookkeeper, Diamond, Carmichael, 
      Gary, Patterson & Duke, P.A. CPAs..........................    15
        Prepared statement of....................................    18
    Lichtman, Judith L., National Partnership for Women & 
      Families...................................................    20
        Prepared statement of....................................    21
    Phillips, Juanita, director of human resources, Intuitive 
      Research and Technology Corp., on behalf of the Society for 
      Human Resource Management..................................     7
        Prepared statement of....................................     9


                      H.R. 1406, WORKING FAMILIES
                        FLEXIBILITY ACT OF 2013

                              ----------                              


                        Thursday, April 11, 2013

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:01 a.m., in 
room 2175, Rayburn House Office Building, Hon. Tim Walberg 
[chairman of the subcommittee] presiding.
    Present: Representatives Walberg, Kline, DesJarlais, 
Hudson, Courtney, Bishop, and Sablan.
    Also present: Representative Roby.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
Owen Caine, Legislative Assistant; Ed Gilroy, Director of 
Workforce Policy; Benjamin Hoog, Legislative Assistant; Donald 
McIntosh, Professional Staff Member; Brian Newell, Deputy 
Communications Director; Krisann Pearce, General Counsel; Molly 
McLaughlin Salmi, Deputy Director of Workforce Policy; Alissa 
Strawcutter, Deputy Clerk; Juliane Sullivan, Staff Director; 
Alexa Turner, Staff Assistant; Aaron Albright, Minority 
Communications Director for Labor; Mary Alfred, Minority 
Fellow, Labor; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Jody Calemine, Minority Staff Director; John 
D'Elia, Minority Labor Policy Associate; Daniel Foster, 
Minority Fellow, Labor; Brian Levin, Minority Deputy Press 
Secretary/New Media Coordinator; Leticia Mederos, Minority 
Senior Policy Advisor; Celine McNicholas, Minority Senior Labor 
Counsel; Richard Miller, Minority Senior Labor Policy Advisor; 
Megan O'Reilly, Minority General Counsel; and Michele 
Varnhagen, Minority Chief Policy Advisor/Labor Policy Director.
    Chairman Walberg. A quorum being present, the subcommittee 
will come to order. Good morning to everyone here this morning.
    I want to thank our witnesses for being with us and sharing 
their thoughts on the legislation introduced by our 
distinguished colleague from Alabama, Martha Roby. 
Representative Roby has proven to be a strong advocate for 
America's workers and we are grateful for her leadership.
    Today we will discuss H.R. 1406, the Working Families 
Flexibility Act of 2013. This important legislation would allow 
private-sector employees to choose paid time off, or ``comp 
time'', as compensation for working overtime hours.
    For nearly 30 years public-sector workers have been able to 
earn comp time and it is only fair to extend the same benefit 
to millions of workers in the private sector who would choose 
that. Today's workplaces are a lot different than they were 
just a generation ago. Technology continues to alter the way 
goods and services reach consumers and cultural changes have 
transformed the nature of America's workforce.
    According to the Bureau of a Labor Statistics, in 2011 
nearly 60 percent of married families with children were headed 
by two working families--working parents. Roughly 66 percent of 
single moms and 79 percent of single dads were working.
    BLS also reports that for the same year, 44 percent of all 
families included children under the age of 18. As a result, it 
has become more difficult for many parents to balance family 
and work, but that is only one part of the American story.
    For one worker, taking home some additional income to pay 
an unexpected car repair bill is important. For another, 
leaving work early to attend a parent-teacher conference is 
more valuable than a few extra dollars in the bank.
    Choice and flexibility will help workers meet the demands 
of their jobs and attend to the needs of their families. That 
is why I am proud to support Working Families Flexibility Act 
of 2013. The bill would give private sector employees a choice 
between cash wages and paid time off for working overtime.
    This is a pro-worker, pro-family proposal that is 
desperately needed. With unanimous consent, I would like to 
yield to Representative Roby to explain the legislation in 
greater detail.
    I would now like to yield briefly to the sponsor of the 
bill. Representative Roby, good to have you with us for any 
comments on the legislation she may have.
    [The statement of Mr. Walberg follows:]

           Prepared Statement of Hon. Tim Walberg, Chairman,
                 Subcommittee on Workforce Protections

    Good morning everyone. I want to thank our witnesses for being with 
us and sharing their thoughts on the legislation introduced by our 
distinguished colleague from Alabama, Martha Roby. Representative Roby 
has proven to be a strong advocate for America's workers and we are 
grateful for her leadership.
    Today we will discuss H.R. 1406, the Working Families Flexibility 
Act of 2013. This important legislation would allow private-sector 
employees to choose paid time off or 'comp time' as compensation for 
working overtime hours. For nearly 30 years, public-sector workers have 
been able to earn comp time and it's only fair to extend the same 
benefit to millions of workers in the private-sector.
    Today's workplaces are a lot different than they were just a 
generation ago. Technology continues to alter the way goods and 
services reach consumers and cultural changes have transformed the 
nature of America's workforce.
    According to the Bureau of Labor Statistics, in 2011 nearly 60 
percent of married families with children were headed by two working 
parents; roughly 66 percent of single moms and 79 percent of single 
dads were working. BLS also reports that for the same year 44 percent 
of all families included children under the age of 18.
    As a result, it has become more difficult for many parents to 
balance family and work--but that's only one part of the American 
story. Each worker faces a unique set of challenges and 
responsibilities. For one worker, taking home some additional income to 
pay an unexpected car repair bill is important. For another, leaving 
work early to attend a parent-teacher conference is more valuable than 
a few extra dollars in the bank. Choice and flexibility will help 
workers meet the demands of their jobs and attend to the needs of their 
families.
    That is why I am proud to support the Working Families Flexibility 
Act of 2013. The bill would give private-sector employees a choice 
between cash wages and paid time off for working overtime. This is a 
pro-worker, pro-family proposal that is desperately needed. With 
unanimous consent, I would like to yield to Representative Roby to 
explain the legislation in greater detail.
    I would now like to yield briefly to the sponsor of the bill, 
Representative Roby, for any comments on the legislation she may have.
                                 ______
                                 
    Mrs. Roby. Thank you so much, Mr. Chairman and I also would 
like to extend a very warm welcome to all of our witnesses, but 
especially our two from Alabama. It is great for you to be with 
us today, all of you.
    Talk to just about any working mom or dad and they will 
tell you they need more time. It is one of our most valuable 
things that we have and, you know, one more hour in the day to 
be able to take care of responsibilities outside of work is 
very valuable.
    Have any of you ever faced a child's disappointment when 
you couldn't leave work to attend a T-ball game or a school 
play? Have you ever wished for more time to devote to an aging 
parent in need of care or extra time with a newborn? Do you 
know what it is like to be a military mom preparing for your 
husband to deploy and knowing your kids are going to need that 
extra attention and support during those months?
    We, here, cannot legislate another hour in the day, but we 
can help working people better balance the demands of family 
and work by removing unnecessary federal restrictions on the 
utilization of comp time in the private sector.
    The Working Families Flexibility Act does not change the 
40-hour workweek or how overtime pay is calculated. Those 
standards remain the same. However, for some workers, having 
extra paid time off is actually more valuable than money, and 
if that is the case, why should Washington stand in the way?
    The law should not make it more difficult for working 
people to balance their time so they can see their child hit a 
home run or attend a parent-teacher conference. This bill 
leaves it up to the employee to decide when to use his or her 
comp time, so long as reasonable notice is given and the 
requested time off would not unduly disrupt the business--the 
same standard that is currently used in the public sector. The 
legislation includes numerous employee protections to ensure 
the use of comp time is truly voluntary.
    For example, there must be a written agreement between the 
employer and the employee from which the employee can withdraw 
at any time. A worker can cash out their accrued comp time and 
instead receive their overtime wages within 30 days. 
Additionally, all existing enforcement remedies in the law are 
retained in the bill as a new remedy to ensure workers are not 
forced or coerced into choosing comp time.
    Does this legislation solve every problem facing working 
families? No, it does not. But it does offer to make life a 
little easier for working Americans by helping them better 
balance the demands of work and family, and I encourage all of 
my colleagues to support the Working Families Flexibility Act 
of 2013.
    Mr. Chairman, thank you for letting me be here, and I yield 
back.
    Chairman Walberg. I thank the gentlelady and I thank you 
for your passion on this issue. It is an issue whose time has 
come and we look forward to our discussions today as we prepare 
to move it to the full committee.
    I guess I would say that I think a number of us could use 
comp time today in the number of committees we have to be at at 
the same time. And with that leading, I would say my 
distinguished colleague, Joe Courtney, the senior Democratic 
member of this committee will be joining us shortly. He is on 
committee work already and will be here. We will recognize him 
for his opening comments, which we do want to hear at the time 
that he arrives.
    But until then, pursuant to committee Rule 7(c), all 
members will be permitted to submit a written statement to be 
included in the permanent hearing record, and without 
objection, the hearing record will remain open for 14 days to 
allow statements, questions for the record, and other 
extraneous material referenced during the hearing to be 
submitted into the official record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses and first I will turn to Representative Roby again 
to introduce our first two witnesses.
    Mrs. Roby. Thank you, Mr. Chairman.
    I am happy to introduce two of our witnesses here with us 
today both of which are from my home state of Alabama. And I 
would like to first introduce Juanita Phillips who is the 
director of human resources in the Intuitive Research and 
Technology Corporation in Huntsville, Alabama. She has over 24 
years of experience as an HR professional in the publishing and 
manufacturing industries and with several federal contractors.
    Next, I would like to introduce Karen DeLoach. Karen is 
actually from my hometown of Montgomery. We met for the first 
time last week. She is a bookkeeper at a local accounting firm 
in Montgomery where she has worked since 2006.
    She has a very interesting story to tell and as a working 
woman who like many of us we wear a lot of different hats, and 
she will provide us with a first-hand account as to how the 
Working Families Flexibility Act of 2013 can have a positive 
impact on her work/life balance.
    So thank you, Mr. Chairman, and thank you ladies for 
spending your time with us today.
    Chairman Walberg. I thank the gentlelady. Maybe we will see 
if the Alabama dialect is across the board with three of you in 
the room today. By the end of the day, we may understand it. 
Okay? [Laughter.]
    Also, we have with us this morning Ms. Judith Lichtman who 
is a senior adviser at the National Partnership for Women and 
Families in Washington, D.C. Welcome.
    And also Mr. Andy Brantley who is the president and chief 
executive officer at the College and University Professional 
Association for Human Resources in Knoxville, Tennessee. 
Welcome.
    I appreciate the fact that our ranking member has arrived. 
I don't know whether you will be staying too long or not. We 
all have multiple committees and subcommittees to be at this 
morning, but we will recognize you now, Mr. Courtney, for your 
opening comments.
    Mr. Courtney. Thank you, Mr. Chairman. I wore black today--
in recognition of Michigan's valiant effort the other night 
and----
    [Laughter.]
    Chairman Walberg. Go Blue.
    Mr. Courtney. Yes, well, I did wear blue also because of 
the UConn women Huskies who obviously are----
    Chairman Walberg. Congratulations.
    Mr. Courtney [continuing]. Amazing program and again, thank 
you for the opportunity again to offer some thoughts at the 
beginning of this hearing.
    Mr. Chairman, this Tuesday was Equal Pay Day. I spent the 
afternoon at another institution, higher education in 
Connecticut, Conn College, speaking to the American Association 
of University Women talking about a meaningful economic agenda 
for women and families which by and large are very much deeply 
intertwined with working families and I heard women talk about 
the need for equal pay, better job opportunities, and 
flexibility at work so that they can deal with family issues 
when they arise.
    I was hopeful that today would be an opportunity to 
continue that discussion and that we would examine legislation 
that gives working families greater flexibility in managing 
their work and family demands.
    Instead, however, we are debating legislation which frankly 
has been recycled through this committee numerous times and 
never prevailed that forces workers to compromise their 
paycheck in order to have more time off from work. What is 
worse, this legislation, as I said, has been considered several 
times before and failed to gain any traction.
    Why? Because this bill has nothing to do with promoting 
workplace flexibility. It is not about paying overtime. It is 
about saying to hourly workers already struggling to make ends 
meet that if you need time off to care for a sick child or 
attend a school concert you need to work extra hours, forgo the 
earned overtime pay, and then as long as it is not disruptive 
to your employer, you may get some time off.
    But to be clear, nothing in this bill requires that the 
worker has access to time off when she really needs it. Working 
families deserve better than a bill that forces them to choose 
between overtime pay and the family-friendly policies they 
desire.
    We should be looking at ways to give workers more power 
over their lives, not hand over hard-fought rights won by 
workers to their employers.
    Under H.R. 1406, workers who already work overtime will not 
get paid for hours worked beyond the 40-hour work--40 hours per 
week. Instead, that the compensation will be controlled by the 
employer. That amounts to an interest-free loan paid for by the 
worker's wages.
    The worker will have to wait until the end of the year to 
be paid for that time. In the meantime, if the firm goes out of 
business or declares bankruptcy, nothing in this bill requires 
that she is paid back.
    Nothing in this legislation mandates that a single worker 
receive a single hour of comp time. Under current law, 
employers are already free to grant paid or unpaid leave to 
employees, and again, my predecessor in this seat, Senator 
Christopher Dodd, was the leader in the Family Leave Act, 
which, you know, really carved out that protection. I am very 
proud to say that he is one of my constituents.
    This bill just provides a way for employers to pay workers 
less in the name of workplace flexibility. It is a tired 
discussion. Nothing in this bill prohibits an employer from 
preferentially assigning overtime to workers who select to 
receive comp time in lieu of overtime, resulting in workers 
whose families must rely on overtime pay being denied access 
to--to additional hours of work.
    This bill makes it more complicated to enforce overtime 
protections. Indeed, at a hearing last Congress in this 
subcommittee we heard from the senior vice president of human 
resources at IBM that tracking comp time would be a challenge 
for businesses. He pointed out that it is ``an administrative 
burden that is cost ineffective.''
    Nothing in this bill provides more resources to the 
Department of Labor to enforce the measure or issue compliance 
assistance to businesses like IBM that may have to establish 
systems accounting for comp time.
    Today is unfortunately a wasted opportunity. Instead of 
building on the momentum of the conversation around Equal Pay 
Day and advancing real family-friendly reforms, the majority is 
recycling a policy that does nothing to help working families.
    Numerous proposals already exist that protect workers' 
wages and promote workplace flexibility. These proposals 
provide guaranteed family or medical leave and do not take away 
from critical overtime protections.
    I am proud to have joined my colleague, Rosa DeLauro, from 
New Haven, Connecticut, as an original cosponsor of the Healthy 
Families Act legislation which provides paid sick days to 
nearly 30 million workers.
    This would make a meaningful difference for working 
families. I look forward to an opportunity to discuss 
legislation like the Healthy Families Act and the Paycheck 
Fairness Act that make a real difference to our nation's 
working families.
    Thank you, Mr. Chairman, I yield back.
    [The statement of Mr. Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, Ranking Member, Subcommittee 
                        on Workforce Protections

    Mr. Chairman, this Tuesday was Equal Pay Day. I spent the afternoon 
at Connecticut College speaking to the American Association of 
University Women talking about a meaningful economic agenda for women 
families. I heard women talk about the need for equal pay, better job 
opportunities, and flexibility at work so that they can deal with 
family issues when they arise. I was hopeful that today would be an 
opportunity to continue that discussion and that we would examine 
legislation that gives working families greater flexibility in managing 
their work and family demands. Instead, we are wasting Committee time 
debating legislation that forces workers to compromise their paycheck 
in order to have more time off work. What's worse, this exact 
legislation has been considered several times before and failed to gain 
any traction. Why--because this bill has nothing to do with promoting 
workplace flexibility. It is about not paying overtime. It is about 
saying to hourly workers already struggling to make ends meet--if you 
need time off to care for a sick child or attend a school concert, you 
need to work extra hours, forgo the earned overtime pay, and then, as 
long as it is not disruptive to your employer, you may get some time 
off. But, to be clear, nothing in this bill requires that the worker 
has access to time-off when she really needs it.
    Working families deserve better than a bill that forces them to 
choose between overtime pay and the family-friendly policies they 
desire. We should be looking at ways to give workers more power over 
their lives, not hand over hard-fought rights won by workers to their 
employers. Under H.R. 1406, workers who work overtime will not get paid 
for hours worked beyond 40 hours per week, instead, that compensation 
will be controlled by the employer. That amounts to an interest-free 
loan paid for by the workers' wages. A worker will have to wait until 
the end of the year to be paid for that time. In the meantime, if the 
firm goes out of business or declares bankruptcy, nothing in this bill 
requires that she is paid back.
    Nothing in this legislation mandates that a single worker receive a 
single hour of comp time. Under current law, employers are already free 
to grant paid or unpaid leave to employees. This bill just provides a 
way for employers to pay workers less in the name of workplace 
flexibility. It is a tired discussion. Nothing in this bill prohibits 
an employer from preferentially assigning overtime to workers who 
select to receive comp time in lieu of overtime, resulting in workers 
whose families most rely on overtime pay being denied access to 
additional hours of work.
    This bill makes it more complicated to enforce overtime 
protections. At a hearing last Congress in this Subcommittee we heard 
from the Senior Vice President of Human Resources at IBM that tracking 
comp time would be a challenge for businesses. He pointed out that it 
is ``an administrative burden that is cost ineffective.'' Nothing in 
this bill provides more resources to the Department of Labor to enforce 
the measure or issue compliance assistance to businesses like IBM that 
may have to establish systems accounting for comp time.
    Today is a wasted opportunity. Instead of building on the momentum 
of conversations around Equal Pay Day and advancing real family-
friendly reforms, the Republican majority is recycling a policy that 
does nothing to help working families. Numerous proposals already exist 
that protect workers' wages and promote workplace flexibility. These 
proposals provide guaranteed family or medical leave and do not take 
away from critical overtime protections. I am proud to have joined my 
colleague Rosa DeLauro as an original cosponsor of the Healthy Families 
Act legislation, which provides paid sick days to nearly 30 million 
workers. That would make a meaningful difference for working families. 
I look forward to an opportunity to discuss legislation like the 
Healthy Families Act and the Paycheck Fairness Act that make a real 
difference for our nation's working families. Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Walberg. I thank the gentleman and points out 
further good reason for us having this discussion today.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. It is like the 
traffic lights. Fairly simple. When the light in front of you 
is green, you have 5 minutes of time to present you testimony. 
We have your written testimonies and if they go longer than the 
5 minutes, we have that information.
    When the light turns yellow, you have 1 minute. And when it 
is red, if you have to proceed through that red light, proceed 
with very much caution and finish--finish your thoughts as 
quickly as possible in that 5-minute period of time.
    Following that, your testimonies--each member will have 5 
minutes each to ask questions of you to further expand on what 
your testimony was about.
    And so now it is a privilege to recognize Ms. Phillips for 
5 minutes of her testimony.

  STATEMENT OF JUANITA PHILLIPS, DIRECTOR OF HUMAN RESOURCES, 
         INTUITIVE RESEARCH AND TECHNOLOGY CORPORATION

    Ms. Phillips. Good morning, Chairman Walberg, Ranking 
Member Courtney, and members of the committee. My name is 
Juanita Phillips and I am director of human resources for 
Intuitive Research and Technology Corporation at our corporate 
headquarters in Huntsville, Alabama.
    I am pleased to appear before you today on behalf of the 
Society for Human Resource Management or SHRM of which I have 
been a member for nearly 20 years.
    Thank you for this opportunity to testify before the 
subcommittee on H.R. 1406, the Working Families Flexibility 
Act, a bill to allow private-sector employers the opportunity 
to provide paid time off in lieu of cash payments for overtime 
if a nonexempt employee chooses this option.
    And your beautiful spring weather is such a wonderful 
backdrop to any conversation about time away from work, so 
thank you for that.
    Mr. Chairman, as you know, comp time has been a choice for 
nonexempt employees in the federal government since 1978 and 
public-sector employees have had it since 1985.
    So the concept of giving employees the choice to select 
paid time off in lieu of cash wages is nothing new. By all 
accounts, comp time has worked well for government employees 
for nearly three decades and it is time to extend this benefit 
to private-sector employers and employees.
    The workforce and workplace have undergone significant 
changes since the Fair Labor Standards Act was enacted in the 
industrial era of 1938. Twenty-first century employees face 
huge challenges as they pursue an optimal work/life fit today.
    Consider for example that 60 percent of employees feel they 
do not have enough time for their children, spouses, partners, 
themselves managing work, personal and family responsibilities, 
in other words, has employees experiencing a time famine.
    We are all juggling ever more responsibilities between work 
and home and public policy should encourage or allow employers 
to offer voluntary options to help employees meet work/life 
obligations.
    That is why I am pleased to join SHRM in supporting H.R. 
1406 and commend my home state representative, Mrs. Roby, for 
introducing this commonsense legislation to give employees 
choice and flexibility.
    H.R. 1406 would amend the FLSA to permit the private sector 
to offer employees the voluntary choice of taking overtime and 
cash payments as they do today or in the form of paid time off 
from work.
    Paid time off would accrue at a rate of 1.5 hours for each 
hour of overtime worked to a max of 160 hours of comp time per 
year. An employer however could choose to cash out comp time 
after 80 hours after providing the employee 30 days written 
notice and all comp time would have to be cashed out at year-
end. The bill also includes several important employee 
protections.
    Compensatory time off as a workplace option gives nonexempt 
employees more control over their time and can improve morale 
and job satisfaction and increase productivity by giving 
employees the option of increased flexibility.
    Mr. Chairman, my company does a lot of federal government 
contract work, which means I have nonexempt employees working 
side-by-side with federal government nonexempt employees. It is 
incredibly difficult to explain to my employees why they cannot 
take comp time while the government employees they work 
alongside can.
    They are left wondering why this arrangement is illegal for 
Intuitive employees and at the same time legal and available to 
government employees. This defies logic to them and frankly, to 
me too.
    My company is committed to a workplace culture that 
supports personal development and work/life needs of our 
employees which helped us to achieve a 94 percent employee 
retention rate in 2012.
    Intuitive has received numerous best-in-class awards which 
speaks to our culture and programs designed to help our people 
navigate home and work demands.
    I am very often told by employees that Intuitive is the 
best place they have ever worked. All of the workplace 
flexibility practices outlined in my written statement are 
voluntary. We don't have to offer these benefits at Intuitive, 
but we do because they work well for our employees and help us 
attract and retain the best.
    That is why H.R. 1406's voluntary approach to comp time for 
employers and employees is so important. If enacted, this bill 
would give employers the option of offering a comp time program 
and employees the choice of whether to participate in the comp 
time arrangement.
    Under current law, private-sector employers and employees 
are without this option and this choice, an option and choice 
that their government counterparts have enjoyed for more than 
30 years.
    Would every private-sector employer adopt a comp time 
program if H.R. 1406 were enacted? Given the diversity of 
private-sector employers, certainly not, but many would. This 
option is a step in the right direction.
    Mr. Chairman, SHRM appreciates this committee's examination 
of the Working Families Flexibility Act as one important tool 
employers can offer to help employees address work and family 
needs; however, we would also welcome and encourage a broader 
conversation on additional ways to facilitate voluntary 
employer adoption of workplace flexibility programs.
    Thank you again for inviting me here today, and I look 
forward to your questions.
    [The statement of Ms. Phillips follows:]

 Prepared Statement of Juanita Phillips, Director of Human Resources, 
 Intuitive Research and Technology Corp., on Behalf of the Society for 
                       Human Resource Management

    Good morning Chairman Walberg, Ranking Member Courtney, and 
distinguished members of the committee. My name is Juanita Phillips, 
and I am Director of Human Resources at Intuitive Research and 
Technology Corporation (INTUITIVE) at our company headquarters in 
Huntsville, Alabama. I am pleased to appear before you today on behalf 
of the Society for Human Resource Management (SHRM), of which I have 
been a member for nearly 20 years. I am also a member of the North 
Alabama SHRM Chapter and the Alabama State Council. Thank you for this 
opportunity to testify before the Subcommittee on H.R. 1406, the 
Working Families Flexibility Act of 2013.
    By way of introduction, I have over 25 years of experience in HR at 
a publishing company, engine manufacturing company and several federal 
government contractors. I've served in HR roles in both collective 
bargaining and non-unionized environments.
    SHRM is the world's largest association devoted to human resource 
(HR) management. Representing more than 260,000 members in over 140 
countries, the Society serves the needs of HR professionals and 
advances the interests of the HR profession. Founded in 1948, SHRM has 
more than 575 affiliated chapters within the United States and 
subsidiary offices in China and India.
    INTUITIVE is an engineering and analytical services firm begun in 
1999 with one contract and two employees. Our two owners are very 
active leaders in the company, who sit next door and down the hall from 
me. We have 275 employees; all but about a dozen work within Alabama. 
It is not easy to get a job with INTUITIVE; we put a great deal of 
effort into our hiring processes, as we are not hiring a person for a 
specific job but are choosing someone to be part of our company. We 
then put a great deal of thought and planning into how we will keep 
those people and are very proud of our 94% retention rate. Each full-
time employee has a written plan of what they would like to accomplish 
professionally, and I touch base with each manager quarterly to talk 
about progress toward those plans. In the 14 years we have been in 
business, we have not laid off anyone due to lack of work. We are 30% 
veterans, 15% disabled, 25% retired from elsewhere, and 10% co-ops, 
interns and student hires.
    I believe our workplace flexibility practices are a major reason 
why INTUITIVE has been recognized with numerous ``best in class'' 
awards, which I outline later in my testimony. My company's policies 
and programs to support employees' work-life needs help improve 
engagement and morale, increase productivity, retain top performers, 
and, ultimately, improve business performance at INTUITIVE. As a 
result, we are always looking for additional opportunities to provide 
employees with flexibility, and the bill we are here to discuss today 
would do just that.
    In my testimony, I will outline my strong support for H.R. 1406, 
the Working Families Flexibility Act of 2013, share with you some 
workplace flexibility practices at my company, and offer SHRM's 
workplace flexibility policy recommendations for Congress.
Background on Compensatory Time
    In 1938, Congress passed the Fair Labor Standards Act (FLSA). Among 
the act's provisions was the requirement that hours of work by non-
exempt employees beyond 40 hours in a seven-day period must be 
compensated at a rate of 1\1/2\ times the employee's regular rate of 
pay. In 1978, Congress passed a temporary bill, the Federal Employees 
Flexible and Compressed Work Schedules Act, which changed the FLSA, 
authorizing compensatory (or comp) time for federal employees. In 1985 
the Federal Employees Flexible and Compressed Work Schedules Act was 
reauthorized and made permanent. At the same time, Congress amended the 
FLSA to expand coverage requirements to include state and local 
agencies and their employees. During that same year, the choice to 
select comp time in lieu of overtime compensation was expanded to state 
and local agencies and their employees.
    As you can see, the concept of giving employees the choice to 
select paid time off in lieu of cash wages is nothing new--it has been 
an option widely available to federal employees for 35 years and, by 
all accounts, it has worked well. While the U.S. House of 
Representatives passed comp time legislation during the 106th Congress, 
the bill unfortunately stalled in the U.S. Senate. In 2003, the 
Committee on Education and the Workforce favorably reported comp time 
legislation, but the full House did not consider the proposal.
    Since comp time has worked well within the public sector at the 
state and federal level for nearly three decades, it is troubling that 
Congress has not extended this same benefit to hardworking private-
sector employees who contribute equally to the nation's workforce and 
economy. Mr. Chairman, the time has come for Congress to approve 
legislation to give private-sector non-exempt employees the opportunity 
to choose for themselves whether to receive cash wages or paid time off 
for working overtime.
Need for Compensatory Time
    The FLSA was enacted toward the end of the Great Depression and 
reflects the realities of the industrial workplace of the 1930s, not 
the workplace of the 21st century. Regrettably, the Act itself and its 
implementing regulations have remained relatively unchanged in the 75 
years since its enactment, despite the dramatic workforce and workplace 
transformations that have occurred during this time.
    The increased diversity and complexity within the American 
workforce--combined with global competition in a 24/7 economy--is 
driving the need for more workplace flexibility. C-suite executives, 
for example, say the biggest threat to their organizations' success is 
attracting and retaining top talent.\1\ Human resource professionals 
believe the best way to attract and retain the best people is to 
provide workplace flexibility.\2\ Moreover, a large majority of 
employees--87 percent--report that flexibility in their jobs would be 
``extremely'' or ``very'' important in deciding whether to take a new 
job.\3\
---------------------------------------------------------------------------
    \1\ Company of the Future Study (2010). Society for Human Resource 
Management and the Economist Intelligence Unit.
    \2\ Challenges Facing Organizations and HR in the Next 10 Years 
(2010). Society for Human Resource Management.
    \3\ National Study of the Changing Workforce (2008). Families and 
Work Institute.
---------------------------------------------------------------------------
    Employees in the 21st century workforce face significant challenges 
as they pursue an optimal work-life fit. For example, a 2011 report 
from SHRM and the Families and Work Institute found that a growing 
number of employees report not having enough time for themselves or to 
spend with loved ones. According to Workplace Flexibility in the United 
States: A Status Report, women's responsibilities at work and men's 
responsibilities at home have increased, resulting in more feelings of 
work-family conflict among both male and female employees. More than 60 
percent of wage and salaried employees feel they do not have enough 
time to be with their children, their spouses/partners, and to spend on 
themselves. Managing work, along with personal and family 
responsibilities, in other words, has resulted in a ``time famine.''
    Consider too that four in five of all employees who are married are 
in dual earner households and that one of every five employees 
currently provides elder care. There is no doubt that employees today 
are juggling ever more responsibilities between work and home, which is 
why many employees are requesting more flexibility at work. Therefore, 
public-policy proposals that encourage or allow employers to offer 
voluntary work-life options are welcomed.
H.R. 1406, the Working Families Flexibility Act of 2013
    SHRM commends Representative Martha Roby (R-AL) for introducing 
H.R. 1406, the Working Families Flexibility Act of 2013. On a personal 
note, I am particularly pleased to speak in support of this bill today 
given its sponsor, Representative Roby, is from my home state of 
Alabama.
    H.R. 1406 would modernize the application of the FLSA to the 
private sector by permitting employers to offer their employees the 
voluntary choice of taking overtime in cash payments, as they do today, 
or in the form of paid time off from work.
    Just as with overtime payments, paid time off would accrue at a 
rate of 1\1/2\ hours for each hour of overtime worked. Employees would 
be able to accrue up to 160 hours of comp time per year, although an 
employer could choose to ``cash out'' the comp time after 80 hours 
after providing the employee with 30 days of notice. An employer would 
also be required to cash out any unused comp time at year's end at the 
higher of the regular time and a half rate at which time was earned or 
the final regular rate.
    The Working Families Flexibility Act also includes important 
employee protections. For example, employees can choose whether or not 
to even participate in a comp time arrangement, giving employees choice 
and control. Under the bill, an employee must voluntarily enter into a 
written comp time arrangement with the employers. Any employer coercion 
is prohibited as is conditioning employment based on participation in a 
comp time program. These rights may be enforced in the same way as 
other rights and protections of the Fair Labor Standards Act. It is 
also important to note that this legislation does not affect the 40-
hour workweek or change the way that overtime is calculated.
    Providing this comp time option would allow employees the 
opportunity to build a bank of time that they can use to take paid time 
off when they need it, provided the time off does not unduly disrupt 
the business operations of the employer. If the employee chooses a comp 
time arrangement but later prefers to receive cash wages for overtime 
hours worked, the employee can discontinue the comp time program by 
giving the employer written notice. Compensatory time off as a 
workplace option gives non-exempt employees more control over their 
time and can improve employee morale and job satisfaction and increase 
productivity by giving employees the option of increased flexibility.
    On a personal note, as I mentioned previously, my company is a 
federal government contractor, which means I have non-exempt INTUITIVE 
employees working side-by-side with federal government non-exempt 
employees. Mr. Chairman, it is incredibly difficult to explain to my 
employees why they cannot take comp time, while the government 
employees they work alongside can. Why would this arrangement be 
illegal for INTUITIVE's employees but not only legal but available to 
government employees? This defies logic to them and frankly, to me too.
    Therefore, I am pleased to join SHRM and its 260,000 members in 
strong support of H.R. 1406 and urge this committee to advance this 
important legislation for consideration by the House of 
Representatives.
Workplace Flexibility at INTUITIVE
    As I mentioned above, INTUITIVE is committed to a workplace culture 
that supports the personal development and work-life needs of its 
employees, which has helped us achieve a 94% retention rate, a rarity 
in our industry. As a small company (currently 275 employees), we are 
very creative in providing employee benefits and workplace flexibility 
options.
    We are honored to have been named the #2 Best Small Company to Work 
for in the U.S. in 2011 and 2012 by the Great Place to Work Institute 
(\2/3\ of scoring based on anonymous online employee surveys), and to 
have been ranked #2 in the Best for Vets Award given by the Military 
Times Edge Magazine for 2012.
    In 2012, INTUITIVE was the only company in North Alabama to be 
recognized for the fifth year in a row as one of the Best Places to 
Work in Huntsville, Alabama, (entirely based on anonymous on-line 
employee surveys) by the Huntsville/Madison County Chamber of Commerce, 
the North Alabama Society for Human Resource Management and the 
National Children's Advocacy Center. We also won the Family Friendly 
Award for Huntsville, and we have appeared in AARP's Top 50 Employers 
in the U.S. for Workers over 50 three years in a row.
    These awards are evidence of the programs and overall approach we 
take at INTUITIVE to helping our people navigate home and work demands.
    Having the ability to design our workplace practices in ways that 
support our mission and values, and that develop and fulfill our 
employees, is critical to us. Employers like ours want to be able to 
continue to manage our workplace in ways that work for us and that 
provide us these outcomes. It is of utmost importance to us to inspire 
and engage our employees. Our 94% retention rate of employees, and a 
greater than 1,330% increase in the number of applicants in the last 
few years both can be greatly attributed to our employees feeling that 
their work is more than just a job. In fact, the ``wall words'' on the 
wall in the HR department read:

    ``Nothing sells our company like the stories of engaged workers who 
take pride in where they work.''

    Here are some of the components of INTUITIVE's approach to 
workplace flexibility:
    Flexibility--One of the key components for helping employees 
navigate work and home is being able to offer flexibility in work 
hours. Because we serve many customers that have differing approaches 
to work hours, we are generally able to match up candidates and 
employees with the type of flexibility they need. This can sometimes 
even be done on a temporary basis, when an employee has such a need. We 
have full-time and part-time positions, and a ``provisional'' category. 
This is a category for those who don't fit the other two--such as those 
who work full-time for periods of time and then part-time for periods 
of time, those who work on a couple of projects per year and don't work 
in between, those whose hours are sporadic, and are co-ops, interns, 
and student hires. We also have employees who have compressed workweeks 
and some who telecommute, and we offer job sharing and phased 
retirement. Our full-time exempt employees just have to get 80 hours in 
during the two-week pay period, providing them with flexibility for 
appointments, school activities, etc. Our non-exempt employees, even 
though they are full-time, do not currently have this flexibility as it 
is illegal under the FLSA. Employees can work better and live well when 
such options are available.
    PTO--We offer Paid Time Off (PTO) leave, which is a combination of 
vacation and sick leave. The amount of PTO an employee receives is 
above the average in our area per Chamber of Commerce-sponsored wage 
and benefit surveys. Under our plan, new employees receive 15 PTO days 
per year accrued per pay period and available for use immediately, and 
employees reach 20 days of PTO at three years of service. The PTO 
approach to providing leave is consistent with treating employees as 
adults; they manage their time-off balance however they wish without 
keeping track of multiple banks of leave or needing excuses to suffice 
requirements for certain types of leave. Additionally, there are no 
issues over whether sick leave covers caring for a child or a relative, 
etc. PTO can be used for any reason, and no documentation is required. 
In addition, along with our monetary bonus programs, we also have the 
option of rewarding employees with bonuses or providing employees with 
additional PTO, especially those employees who have circumstances for 
which they may appreciate additional PTO days more than money. Overall, 
providing our employees PTO leave contributes positively to our 
professional environment.
    Additional Paid Leave for the Flu--We don't want flu to be spread 
among employees, and so we provide unlimited paid leave to any employee 
who has the flu or if anyone in their household has the flu. This leave 
does not count against their PTO balance and we require no 
documentation. Because of the type of workforce we have and because of 
our company culture, no one in the company abuses this practice; it 
works great.
    Holidays--Another way we provide flexibility to our employees is 
that INTUITIVE makes all ten of our holidays floatable. If employees 
prefer to work any particular holiday, they may do so as long as their 
workplace is open that day and they have supervisory approval. All 
earned holidays simply must be used before the end of the calendar 
year. This approach is valuable to employees in that it provides them 
with flexibility for scheduling time off, and for making their holidays 
coincide or alternate with a working spouse's holidays, depending on 
their needs.
    Veterans Programs and VIP Leave--I mentioned that INTUITIVE was 
named the #2 Best for Vets Award winner among employers, according to 
Military Times' Edge Magazine in 2011. INTUITIVE has a very active 
veterans' network within the company, and a very robust veterans 
program, including each new-hire vet getting to meet our VIP (Veterans 
Information Program) Contact Coordinator on their first day and then 
being connected to a veteran within the company with whom they have 
something in common. We have a VIP site on our employee portal page 
(intranet), which is dedicated entirely to information and resources 
for our veterans. One component of our VIP program is VIP leave, which 
provides up to three days off with pay per year for appointments at a 
VA hospital or for a family member's mid-tour return visit. 
Additionally, activated reservists are given the difference between 
their military pay and their civilian pay for up to 6 months. And we 
love calling our vets ``VIPs.''
    Elder Care Benefit--Employees who are also caregivers are becoming 
more and more common, as some of the generations in our workplace are 
not only taking care of children, but are also taking care of aging 
loved ones. We are proud to have an elder care benefit that provides 
each employee with a free 45-minute consultation each year with experts 
in the field of elder care, and provides discounts on further services. 
This benefit also includes four Lunch 'n Learns annually on various 
elder care topics, which a spouse or family member may also attend. A 
Lunch 'n Learn is also provided for managers on the topic of 
supervising caregivers. The information shared is excellent; the 
resources are much appreciated, and it is a further program that 
assists employees with managing their personal or family life and work.
    Parental Leave--Our short-term disability (provided to all full-
time employees at no cost, and available for purchase by non-FT 
employees) provides 70% of regular pay for up to 11 weeks. That benefit 
covers moms, and when dads plan time off for a birth or adoption, they 
generally have saved enough leave for the event. When moms or dads are 
short we often find a performance event for which to bonus them with 
additional PTO. We also provide an Adoption Benefit, which is a 
monetary benefit upon completion of a successful adoption in which 
neither adopting parent is the biological parent. Due to our generous 
short-term disability policy and bonus practices, no one has had to 
rely on Family and Medical Leave Act coverage in the 14-year life of 
the company.
    Disability Insurance--In addition to the short-term disability 
described above, the company provides long-term disability to all full-
time employees and makes it available for purchase to non-FT employees.
    Daycare--We are purposely located next door to two daycare 
facilities. Several of our employees use those daycare facilities 
because of the proximity to our facility, making their daily life a bit 
easier. One employee could for a time look out her window and see her 
son on the playground.
    Along with enhancing work-life balance for everyone, our work 
schedule flexibility is especially attractive to retirees. We have many 
employees who have previously retired, but come to work for us because 
they have exactly the skills we need to support specific customers and 
still want to make a difference. Our structure allows us to be able to 
provide the flexibility they often want. In fact, 25% of our employees 
are retired from elsewhere, and 8% are using our phased retirement 
approach. Overall, 30% of our workforce has flexible start and stop 
times, 10% have a compressed workweek; and 4% work from home. We 
believe all of these practices contribute to our ability to attract, 
hire, and retain the best talent.
    Mr. Chairman, all of these practices are voluntary. We don't have 
to offer these benefits at INTUITIVE, but we do because they work well 
for our employees and help us attract and retain the best people. 
However, if INTUITIVE's benefits were forced onto another employer in 
Huntsville, or across the state or the country, these benefits might 
not work as well for them given that every workforce is unique.
    That's why this bill's (H.R. 1406) voluntary approach to comp time 
for employers and employees is so important. If enacted, this bill 
would give employers the option of offering a comp time program and 
employees the choice of whether to participate in the comp time 
arrangement. Under current law, private-sector employers and employees 
are without this option and this choice--an option and choice that 
their government counterparts have enjoyed for more than 30 years.
SHRM's Recommendations for a 21st Century Workplace Flexibility Policy
    HR professionals are on the front lines of devising workplace 
strategies to create effective and flexible organizations. As such, 
SHRM and its members have given careful consideration to the role 
public policy can play in advancing the adoption of workplace 
flexibility. It is our strong belief that public policy must not hinder 
an employer's ability to provide flexible work options. Rather, public 
policy should incentivize and enhance the voluntary employer adoption 
of workplace flexibility programs.
    We are pleased to support H.R. 1406 because it meets this important 
threshold. The Working Families Flexibility Act of 2013 would provide 
private-sector employers with an additional flexibility offering for 
their non-exempt employees. Would every private-sector employer adopt a 
comp time program if H.R. 1406 were enacted? Given the diversity of 
private-sector employers, certainly not, but many organizations would 
offer comp time to give employees more flexibility, and HR 
professionals believe that providing this option is a step in the right 
direction.
    Allowing comp time in the private sector is only one part of the 
solution, however. SHRM and its members believe the United States must 
have a 21st Century workplace flexibility policy that reflects the 
nature of today's workforce, and that meets the needs of both employees 
and employers. It should enable employees to navigate their work and 
personal needs while providing predictability and stability to 
employers. Most importantly, such an approach must encourage employers 
to offer greater flexibility, creativity and innovation to meet the 
needs of their employees and their families. While the Working Families 
Flexibility Act of 2013 certainly meets these criteria, more needs to 
be done.
    In 2009, SHRM developed a set of five principles to help guide the 
creation of a new workplace flexibility statute. In essence, SHRM 
believes that all employers should be encouraged to provide paid leave 
for illness, vacation and personal days to accommodate the needs of 
employees and their family members. In return for meeting a minimum 
eligibility requirement, employers who choose to provide paid leave 
would be considered to have satisfied federal, state and local 
requirements and would qualify for a statutorily defined ``safe 
harbor.'' The principles are as follows:
    Shared Needs--SHRM envisions a ``safe harbor'' standard where 
employers voluntarily provide a specified number of paid leave days for 
employees to use for any purpose, consistent with the employer's 
policies or collective bargaining agreements. A federal policy should:
    <bullet> Provide certainty, predictability and accountability for 
employees and employers.
    <bullet> Encourage employers to offer paid leave under a uniform 
and coordinated set of rules that would replace and simplify the 
confusing--and often conflicting--existing patchwork of regulations.
    <bullet> Create administrative and compliance incentives for 
employers who offer paid leave by offering them a safe-harbor standard 
that would facilitate compliance and save on administrative costs.
    <bullet> Allow for different work environments, union 
representation, industries and organizational size.
    <bullet> Permit employers that voluntarily meet safe harbor leave 
standards to satisfy federal, state and local leave requirements.
    Employee Leave--Employers should be encouraged voluntarily to 
provide paid leave to help employees meet work and personal life 
obligations through the safe-harbor leave standard. A federal policy 
should:
    <bullet> Encourage employers to offer employees some level of paid 
leave that meets minimum eligibility requirements as allowed under the 
employer's safe-harbor plan.
    <bullet> Allow the employee to use the leave for illness, vacation, 
personal and family needs.
    <bullet> Require employers to create a plan document, made 
available to all eligible employees, that fulfills the requirements of 
the safe harbor.
    <bullet> Require the employer to attest to the U.S. Department of 
Labor that the plan meets the safe-harbor requirements.
    Flexibility--A federal workplace leave policy should encourage 
maximum flexibility for both employees and employers. A federal policy 
should:
    <bullet> Permit the leave requirement to be satisfied by following 
the policies and parameters of an employer plan or collective 
bargaining agreement, where applicable, consistent with the safe-harbor 
provisions.
    <bullet> Provide employers with predictability and stability in 
workforce operations.
    <bullet> Provide employees with the predictability and stability 
necessary to meet personal needs.
    Scalability--A federal workplace leave policy must avoid a mandated 
one-size-fits-all approach and instead recognize that paid leave 
offerings should accommodate the increasing diversity in workforce 
needs and environments. A federal policy should:
    <bullet> Allow leave benefits to be scaled to the number of 
employees at an organization; the organization's type of operations; 
talent and staffing availability; market and competitive forces; and 
collective bargaining arrangements.
    <bullet> Provide pro-rated leave benefits to full- and part-time 
employees as applicable under the employer plan, which is tailored to 
the specific workforce needs and consistent with the safe harbor.
    Flexible Work Options--Employees and employers can benefit from a 
public policy that meets the diverse needs of the workplace in 
supporting and encouraging flexible work options such as telecommuting, 
flexible work arrangements, job sharing and compressed or reduced 
schedules. Federal statutes that impede these offerings should be 
updated to provide employers and employees with maximum flexibility to 
navigate work and personal needs. A federal policy should:
    <bullet> Amend federal law to allow employees to manage work and 
family needs through flexible work options such as telecommuting, comp 
time, flextime, part-time, job sharing and compressed or reduced 
schedules.
    <bullet> Permit employees to choose either earning compensatory 
time off for work hours beyond the established workweek, or overtime 
wages.
    <bullet> Clarify federal law to strengthen existing leave statutes 
to ensure they work for both employees and employers.
Conclusion
    In the global, 21st century economy, workplace flexibility policies 
help both multinational corporations and small businesses meet the 
needs of their employees. At its core, workplace flexibility is about 
improving business results by providing employees with more control 
over how, when and where work gets done. H.R. 1406 would give private-
sector non-exempt employees more control by giving them the option of 
paid time off in lieu of cash wages for overtime hours worked.
    My company and employers across the country would appreciate the 
option of allowing for comp time as a way to help employees better meet 
their work-life needs. For over 30 years, comp time has had a 
successful track record for federal employees and it's time to extend 
this benefit choice to employees in the private sector.
    SHRM remains committed to working with the Subcommittee and Members 
of Congress to ensure employers can continue to provide workplace 
flexibility strategies in a manner that does not threaten existing 
benefits or create unnecessary and counterproductive regulations. We 
believe it's time to pursue a new approach to this issue absent of 
rigid, unworkable mandates which result in unfavorable unintended 
consequences. It's time to give employees greater flexibility and to 
give employers more predictability.
    Thank you. I am happy to answer any questions you may have.
                                 ______
                                 
    Chairman Walberg. Thank you.
    Before we introduce the next witness, today is quite a busy 
day for many members, myself included, and I have another 
committee I have to go defend a bill on right now.
    So I ask unanimous consent that Representative Roby, a 
member of the committee and the sponsor of the bill, H.R. 1406, 
serve as the chair at today's hearing in my absence.
    No objection being heard, I thank Representative Roby.
    Mrs. Roby [presiding]. I didn't bang it.
    Next, I would like to recognize Mrs. DeLoach for 5 minutes.

             STATEMENT OF KAREN DELOACH, BOOKKEEPER

    Ms. DeLoach. Thank you. Good morning, Chairman Walberg, now 
Chairwoman Roby and distinguished members of the committee.
    My name is Karen DeLoach. I am very grateful for the 
opportunity to convey my testimony today. I only hope that it 
proves helpful in your determination about the Working Families 
Flexibility Act of 2013.
    It is great to live in a country where our government 
officials want to hear the voice of ``Jane Q. Public,'' I have 
friends in parts of the world where that is not allowed. With 
that being said, I will move to the heart of my story.
    I was raised with a strong work ethic and a focus on the 
importance of family. I became a part of the workforce when I 
was 17 years old, and I have worked for nearly all of the last 
31 years. I married in 1984, and we soon moved from Georgia to 
Alabama.
    I was married for nearly 7 years and had three children in 
that marriage. Due to multiple problems that we could not work 
out, we divorced. I was then a single mother of three for the 
next 7 years.
    In 1992, my annual income was approximately $18,000.00, and 
by the grace of God, our family of four survived from paycheck 
to paycheck and miracle to miracle. Because I was the only 
parent available for the children, I exhausted my sick and 
vacation time every year.
    Fifteen years ago, I married a wonderful man who had three 
children of his own, two of them were still in college. My 
husband, James, is a professor at a local university. He 
teaches finance, primarily to adults who want to further their 
education to attain promotions with pay increases.
    I appreciate that my husband sees this as a way to help 
entire families have better lives, and I respect him for his 
contribution to our community. All of our children are adults 
now, some with children of their own. We have six 
grandchildren, and we look forward to the time that we get to 
spend with them.
    So, now I come to mention the Working Families Flexibility 
Act and how I perceive that it could be a positive step for 
employees in the private sector.
    You may wonder why compensatory time could matter to an 
empty-nester who seems to be in pretty good health. Why would I 
need more time off from work than the paid, sick, and vacation 
time that my employer agreed to allow annually?
    Well, I have learned in the last several years that there 
can still be many unforeseen needs in addition to any planned 
break from the routine. One such case involves my youngest 
sister and her family, who live in Montgomery.
    My brother-in-law's family owns Central Alabama Greenhouse, 
a small business, and 14 years ago yesterday, they were blessed 
with the birth of their first-born child, Katie. My niece is a 
vivacious young lady who was born with special needs. They make 
numerous trips to Children's Hospital in Birmingham for routine 
checks and sometimes more serious things.
    My sister must have someone who is capable of operating 
Katie's feeding tube to travel with her for these appointments. 
Because the greenhouse business can have very busy seasons, her 
husband can't always go with her and I like to be available to 
go with her anytime that she calls because that is important to 
me.
    It was actually that sister and brother-in-law who 
introduced me to the accounting firm where I now work. I 
started working at Diamond, Carmichael, Gary, Patterson and 
Duke, in September of 2006. They are a great establishment to 
work for and willing to be flexible about my time, as flexible 
as the law will allow them.
    I am in hopes that this bill passes and allows my employer 
to offer greater flexibility to the employees.
    In the summer of 2007, after listening to a presentation on 
missions at my church, I was overwhelmingly compelled to go on 
and participate in international missions. During the summer of 
2008, I went on my first mission trip to Nicaragua.
    We brought reading glasses as well as some household items 
to families in remote areas. More important than the material 
things that we brought, was the time that we spent with the 
people there.
    People were free to talk about their problems, and I was 
able to encourage them, pray with them, and tell them how Jesus 
Christ had changed my life.
    I have gone back to Nicaragua each year many times to 
unfamiliar areas, working with local pastors bringing shoes, 
clothes, and other items to them, and I still see that the time 
spent playing with the children or listening to mothers talk 
about their concerns about their family and the future that 
they might have matters more to them than any objects.
    I am thankful that I have the opportunity to go and serve, 
even if it means taking time off without pay. Working as a 
bookkeeper means that certain times of the year, like tax 
season are much busier than others.
    If I work overtime in April, for example, I would rather 
take that time--that overtim--in time later in July say when I 
am going to be going on a mission trip rather than to have 
extra money in April and then in July to have to go without any 
pay for a week.
    Mission trips are a wonderful way to serve others and to 
learn about different cultures in the world. I was raised to 
believe that it is important to assist others. In my community, 
I am a volunteer on the Elmore County Juvenile Conference 
Committee.
    The EJCC was formed to help youth in our community who have 
gotten into trouble with a first offense/non-violent crime. Our 
district court judge, Maura Culberson, refers eligible cases to 
the committee.
    We learn specifics about the young people as they come 
through our program and we use those things to--I am sorry--to 
help them and their parents engage in new behaviors that will 
help change the course of their lives for a brighter future.
    The EJCC develops constructive sanctions that are tailored 
to families' needs. We have an annual luncheon and training 
session which takes half the day in the spring time and this 
year I wasn't able to stay for the entire day because I didn't 
have enough vacation time saved up.
    Right now, committee members, you have the ability to 
empower families across the nation with freedom of choice. You 
could afford me the freedom to choose whether I want to take my 
overtime pay in days or dollars.
    In the last 3 years, my mother, my brother, my father-in-
law, and one of my sons-in-law have all passed away; some at 
relatively early ages. I am not getting any younger and neither 
is the rest of the world, so time is precious to me. I would 
greatly appreciate the option to work--at work to choose 
between being compensated in the dollars or the days, as I have 
said.
    In closing, given the public sector has utilized in this 
plan for nearly 30 years and continues to keep it in place 
leads me to think that our government already deems this a 
viable plan.
    Since the bill includes a provision whereby it would cease 
to exist after 5 years unless Congress extends it or makes 
itpermanent, I believe that comes with its own safety valve of 
sorts. This bill offers flexibility; not a mandate.
    Thank you for your time today and for the freedom to 
express my personal story.
    [The statement of Ms. DeLoach follows:]

      Prepared Statement of Karen Steinhauer DeLoach, Bookkeeper,
         Diamond, Carmichael, Gary, Patterson & Duke, P.A. CPAs

    Good Morning, Chairman Walberg and distinguished members of the 
committee, my name is Karen DeLoach. I am very grateful for the 
opportunity to convey my testimony today. I hope that it proves helpful 
in your determination about the Working Families Flexibility Act of 
2013. It is great to live in a country where our government officials 
want to hear the voice of ``Jane Q. Public'', I have friends in parts 
of the world where this is not the case. With that being said, I'll 
move to the heart of my story.
    I was raised with a strong work ethic and a focus on the importance 
of family. I became a part of the workforce when I was seventeen years 
old, and I have worked for nearly all of the last thirty-one years. I 
married in 1984, and we soon moved from Georgia to Alabama. I was 
married for nearly seven years and had three children in that marriage. 
Due to multiple problems that we could not work out, we divorced. I was 
then a single mother of three for the next seven years. In 1992, my 
annual income was approximately $18,000.00 per year. By the grace of 
God, our family of four survived from paycheck to paycheck and miracle 
to miracle. Because I was the only parent available for the children, I 
exhausted my sick and vacation time every year.
    Fifteen years ago, I married a wonderful man who had three children 
of his own, two of them still in college. So we are a blended family, a 
very well blended family. My husband, James, is a professor at a local 
university. He teaches Finance, primarily to adults who want to further 
their education to attain promotions with pay increases. I appreciate 
that my husband sees this as a way to help entire families have better 
lives, and I respect him for this contribution to our community. All of 
our children are adults now, some with children of their own. As a 
matter of fact, we have six grandchildren now, and we happily look 
forward to the time that we get to spend with them.
    So, now I come to the mention of the Working Families Flexibility 
Act and how I perceive that it could be a positive step for employees 
in the private sector. You may wonder why compensatory time could 
matter to an empty-nester who seems to be in pretty good health. Why 
would I need more time off from work than the paid sick and vacation 
time that my employer agreed to allow annually? Well, I've learned in 
the last several years that there can still be many unforeseen needs in 
addition to any planned break from the routine. One such case involves 
my youngest sister and her family who live in Montgomery. My brother-
in-law's family owns Central Alabama Greenhouse, which is a small 
business. Fourteen years ago, yesterday, they were blessed with their 
first-born child, Katie. My niece is a vivacious little girl who was 
born with special needs. They make numerous trips to Children's 
Hospital in Birmingham for routine checks and sometimes more serious 
things. My sister must have someone who is capable of operating Katie's 
feeding tube, to travel with them for these appointments. Because the 
Greenhouse business can have very busy seasons, her husband cannot go 
to all of the appointments. I want to be available for those times when 
my sister asks me for help, because they are so important to me.
    It was actually that sister and brother-in-law who introduced me to 
the accounting firm where I now work. I started working at Diamond, 
Carmichael, Gary, Patterson and Duke, (then with fewer partners) in 
September of 2006. They are a great establishment to work for and are 
willing to be flexible about my time, but only as flexible as the law 
allows. I am in hopes that this bill passes and allows my employer to 
offer greater flexibility to the employees. From August 2011 through 
October 2012, I worked full time to help my church, East Memorial 
Baptist, before returning to Diamond, Carmichael where I am still 
employed.
    In the summer of 2007, after listening to a presentation on 
missions at church, I felt strongly that I must get involved. I was 
overwhelmingly compelled to go and participate in international 
missions. During the summer of 2008, I went on my first mission trip to 
Nicaragua. We brought reading glasses as well as some household items 
to families in remote areas. More important than the material things 
that we brought, was the time that we spent with people there. People 
were free to talk about their problems, and I was able to encourage 
them, pray with them and tell them how Jesus Christ has changed my 
life. I have gone back to Nicaragua each year, many times to unfamiliar 
areas, working with local pastors and bringing shoes, clothes, and 
other items to them. I still see that the time spent playing with 
children, or encouraging mothers who are worried about the futures of 
their children are more precious to them than objects. I am thankful 
that I have the opportunity to go and serve, even if it means taking 
time off without pay. Working as a bookkeeper means that certain times 
of the year, such as the quarterly payroll tax return months, are much 
busier than other times of the year. If I work overtime in April, for 
example, I would like to have the option of choosing to reserve that 
time to be taken off from work as compensatory time rather than making 
extra money in April and then taking leave without pay in June or July, 
when participating in missions.
    Mission trips are a wonderful way to serve others and to learn 
about different cultures in the world. I was raised to believe that it 
is important to assist others. In my community, I am a volunteer on the 
Elmore County Juvenile Conference Committee (or EJCC). The EJCC was 
formed to help the youth in our community who have gotten into trouble 
with a first offense/non-violent crime. Our District Court Judge, Maura 
Culberson refers eligible cases to the committee. We hope to learn 
something about the young people who come through our program in order 
to help them and their parents engage in new behaviors that will help 
change the course of their lives for a brighter future. The EJCC 
develops constructive sanctions that are tailored to the family's 
needs. Although the monthly committee meetings are held during the 
evening, there is an annual luncheon and training session which takes 
one half of a work day each March. This year, I did not attend the full 
session because I had not yet accrued the vacation time needed to do 
so.
    Now, I come to the part of my testimony that reveals more about 
what drives this issue home for me. In 2009, I got a phone call from my 
sister-in law in Columbus, GA. She told me that there was an emergency 
at the hospital. My older brother, Jay, had respiratory failure while 
in the E.R. admissions office. While they were able to revive him, he 
had to be intubated * * * that is put on a respirator. He was only 
fifty years old at the time, and through the combination of a 
congenital heart defect and decades of cigarette smoking, his body was 
rapidly shutting down, one system at a time. My sister and I dropped 
everything and went directly to the hospital, an hour and a half away. 
Our father traveled over five hours to be at his side. My brother was 
in the ICU for one full month. When someone is in ICU, the visiting 
hours are extremely limited and yet I knew that I needed to be there as 
much as possible for my brother. Waking up connected to a respirator 
was horrifying for him. He was scared and he needed family to be there. 
His wife was overwrought with emotion and could not handle this on her 
own. The hospital had called for the palliative care specialist to come 
in because they believed that he would not leave that hospital alive. I 
believe that seeing family present in the room with him, praying for 
him, singing to him and encouraging him all helped turn things around 
for my brother in 2009. At this time, I could not tell you how much 
time I missed from work; I only know that my sister and I alternated 
days in the hospital with Jay and he was able to walk again, breathe 
again and live at home again. In June of 2012, our brother passed away. 
No amount of money would have been worth missing the chance to be there 
for my brother in his time of need.
    Right now, committee members, you have the ability to empower 
families across the nation with the freedom of choice. You could afford 
me the freedom to choose to use my overtime as leave time, while my 
coworker can still choose overtime pay, if she likes.
    In the last three years, my mother, my brother, my father-in-law 
and one of my sons-in-law have all passed away, some at relatively 
early ages. I am not getting any younger, and neither is the rest of 
the world so yes, I say again, time is precious to me. I would greatly 
appreciate the option at work to choose between being compensated in 
dollars or days.
    Given that the public sector has utilized this plan for nearly 
thirty years and continues to keep it in place leads me to think that 
our government already deems this a viable plan. Since the bill 
includes a provision whereby it will cease to exist after five years 
unless Congress extends it or makes it permanent, I believe that it 
comes with its own 'safety valve' of sorts. This bill offers 
flexibility not a mandate.
    Thank you for your time today and for the freedom to express my 
personal story.
                                 ______
                                 
    Mrs. Roby. Thank you.
    Next I recognize Mrs. Lichtman for 5 minutes.

         STATEMENT OF JUDITH LICHTMAN, SENIOR ADVISOR,
          NATIONAL PARTNERSHIP FOR WOMEN AND FAMILIES

    Ms. Lichtman. Good morning. I am Judith Lichtman--I am 
Judith Lichtman, senior advisor at the National Partnership for 
Women and Families, a nonprofit, nonpartisan advocacy group 
that has fought for every major policy advancing and helping 
women and families.
    As you know, people today are struggling to meet the 
demands of job and family and to make ends meet. In most 
families all adults work. Women comprise half of the workforce 
and our earnings are essential.
    Women also remain the primary caregivers for most families, 
which is why we urgently need lawmakers to take the next step 
on the road to a family-friendly nation, but H.R. 1406 is not 
the next step. It is really a U-turn that would leave us 
heading in the wrong direction.
    Instead of building on the success of FMLA, state and local 
paid sick days laws, and a fair minimum wage, this so-called 
flexibility bill offers forced choices and false promises.
    It pretends to offer time off, but instead gives workers a 
pay cut without a guarantee of time off when they most need it. 
It sets up a false dichotomy between time and money at a time 
when working families urgently need both.
    Proposals identical to 1406 have been introduced before but 
fortunately have not become law. That is good news because it 
would undermine the Fair Labor Standards Act, which for 75 
years has required that hourly, nonexempt employees be paid 
time and a half if they work more than 40 hours per week.
    1406 would reduce workers' control over their time and 
their paychecks. 1406 allows employers to offer comp time in 
lieu of overtime although it requires quote/unquote--``An 
agreement by an employee to accept comp time.'' An employee 
could easily feel obligated to agree to comp time.
    An employee who doesn't accept comp time could be penalized 
with fewer hours, bad shifts, and loss of overtime and because 
it is cheaper to provide comp time than to pay overtime wages, 
there is an incentive for employers to hire fewer people and 
rely on overtime hours, paid for in future comp time, to get 
work done.
    As we all well know, you can't pay the rent or buy 
groceries with comp time.
    1406 would mean fewer jobs. It could mean greater 
scheduling instability, uncertainty, and unpredictability, 
higher childcare costs, and lower wages.
    It would permit employers to defer compensation for unused 
comp time for as long as 13 months, creating an interest-free 
loan for employers and hardship for workers.
    The so-called flexibility offered by 1406 is really a 
mirage. It would give employers, not employees, the flexibility 
to decide when and even if comp time can be used.
    It offers no remedy if an employee is not allowed to use 
accrued comp time except to ask that the time be cashed out. 
Employees simply should not have to put in work beyond a 40-
hour workweek and forgo pay to earn time to care for themselves 
and their loved ones.
    We ask you to reject 1406. It is deeply flawed and would 
cause real harm to workers at a time when the nation's working 
families urgently need workplaces that are more fair and 
family-friendly, this bill is an empty promise.
    It is a cruel hoax that would take the country in the wrong 
direction. We must not require workers to subsidize their own 
time off with lower wages and more time on the job, as H.R. 
1406 does. Instead, we should adopt national policy solutions 
patterned on those with a proven record of success in cities 
and states.
    Instead of wasting time on smoke and mirrors, I urge you to 
support the Healthy Families Act, which makes earned sick days 
available to millions;; paid family and medical leave insurance 
modeled on successful campaigns, programs in California and New 
Jersey;; expand access to FMLA for more workers for more 
reasons, so parents really could take time off to attend 
parent-teacher conferences; The Fair Minimum Wage Act; the 
Paycheck Fairness Act to help those gender-based wage gap 
measures to encourage fairer and more predictable work hours.
    Those are the advances that the nation needs. Those are the 
initiatives that Americans support. Those are the best next 
step for our nation's workers and our families, employers, 
communities, and the economy.
    I thank you all very much for the opportunity to testify 
today. We look forward to working with you to adopt policies 
that are truly family-friendly.
    Thank you.
    [The statement of Ms. Lichtman follows:]

               Prepared Statement of Judith L. Lichtman,
               National Partnership for Women & Families

    Good morning, Chairman Walberg, Ranking Member Courtney, members of 
the Committee and my fellow panelists. I appreciate the opportunity to 
testify before you today on H.R. 1406.
    I am Judith Lichtman, senior advisor at the National Partnership 
for Women & Families, a nonprofit, nonpartisan advocacy organization. 
For four decades, we have fought for every major policy advance that 
has helped women and families. We promote fairness in the workplace, 
access to quality, affordable health care, and policies that help women 
and men meet the dual demands of work and family. Our goal is to create 
a society that is free, fair and just, where nobody has to experience 
discrimination, all workplaces are family friendly, and every family 
has access to quality, affordable health care and real economic 
security.
    Formerly the Women's Legal Defense Fund, the National Partnership 
for Women & Families is proud to have drafted the Family and Medical 
Leave Act (FMLA) and led the coalition that fought to make it law. 
Since 1993, women and men have used the FMLA more than 100 million 
times to care for themselves or their loved ones. It is an historic law 
that has had a tremendous impact, and a shining example of what can be 
accomplished when lawmakers work together to address the nation's 
needs. The FMLA was intended as a first step toward a nation with 
public policies that truly value families.
It Is Time to Update Our Nation's Family Friendly Laws, But H.R. 1406 
        Offers a False Choice Between Time and Pay
    As lawmakers on both sides of the aisle have acknowledged, people 
today are struggling to meet the demands of job and family, as well as 
to make ends meet. In most families, all adults work. Women comprise 
half of the workforce and women's earnings are essential to their 
families. Women also remain primary caregivers in most families.
    We all know these are tough times. Across the nation, women--and 
men--are struggling to get by on less, and to meet both the demands of 
their employers and the needs of their families. They are worrying 
about whether their jobs are secure, and trying to hold onto them 
without the time off they need. Many also contend with work schedules 
that are unpredictable, inflexible and unstable.
    So it should be no surprise that, in a survey commissioned by the 
National Partnership in November 2012, 80 percent of working women and 
72 percent of working men said they, their neighbors or their friends 
face hardships when managing work, family and personal 
responsibilities.\1\
    There is no question that Americans need lawmakers to take the next 
step on the road to a family friendly nation. But H.R. 1406 is not what 
the nation needs. It is, at best, an empty promise. In truth, it would 
cause considerably more harm than good.
    Quite simply, H.R. 1406 would be a step in the wrong direction. 
Instead of building on the success of policies such as the FMLA, paid 
sick days standards and a fair minimum wage--which provide workers and 
their families with the time off and the financial stability they 
need--this ``flexibility'' bill offers forced choices and false 
promises.
    This legislation is based on smoke and mirrors. It pretends to 
offer the time off people need when they need it, but in fact, it is a 
pay cut for workers without any attendant guarantee of time. It also 
sets up a dangerous, false dichotomy between time and money when, in 
fact, working families need both.
    H.R. 1406 has been introduced multiple times, in identical form, 
since the late 1990s. Fortunately for the nation's workers, it has not 
become law. That is good news because this bill would undermine the 
very purposes of the Fair Labor Standards Act (FLSA), which for 75 
years has helped protect the working hours and paychecks of covered 
employees. The FLSA's requirement that hourly, non-exempt employees be 
paid time-and-a-half for every hour of work in excess of 40 hours per 
week was intended to spread job opportunities to more workers and 
create disincentives for overwork, giving working women and men the 
ability to spend time with their loved ones.
    H.R. 1406 would leave workers with neither pay nor time. Let me 
tell you about a woman the National Partnership and our colleague 
organization, Family Values @ Work, met in 2011 when we convened 
discussion groups to examine the challenges facing workers to inform 
the U.S. Department of Labor's National Dialogue on Workplace 
Flexibility.
    In Los Angeles, we met a widowed clerical aide we'll call Susannah 
who has a 20-year-old son, a 19-year-old daughter, a 5-year-old 
daughter, and a 73-year-old mother with health problems.\2\ This hourly 
worker said her hours had been cut from 40 per week to 30, but her 
workload had not decreased. ``We put in a lot of 'voluntary' time,'' 
she explained. ``We get told things like, 'If you can't handle it or 
it's too much work for you, maybe we can find someone else.''' Despite 
family obligations that required her to be home in the evenings, 
Susannah felt constant pressure from her supervisor to work extra hours 
on short notice. ``If I need to work overtime, I do it to keep my 
job,'' she explained, even though those extra hours often created 
child- or elder-care problems and extra expenses. At the same time, 
Susannah said her employer treated her with suspicion when she needed 
to take a day off to care for her sick child. She said she sometimes 
goes to work sick for fear that taking a day off would mean losing her 
job.
    Susannah is just one of the many workers whose experiences put a 
face on data from the Bureau of Labor Statistics and major national 
surveys that show declines in the value of workers' wages, declines in 
workers' control over their work hours and schedules, and growing fears 
of termination that prevent workers from asserting their rights. It 
also illustrates the family demands that workers face, and how hard it 
can be to care for children and parents at the same time, especially 
without guaranteed time off and enough income to cover unexpected 
expenses.
    We heard from workers with similar stories all over the country, 
and their experiences shine a bright light on why H.R. 1406 is so 
deeply flawed. It would give workers less control over both their time 
and their paychecks. It does not guarantee the time off that workers 
need, regardless of their opportunity or ability to work overtime 
hours. And for the growing segment of workers whose challenges stem 
from the opposite problem--working too few hours involuntarily with too 
little predictability--this proposal would do absolutely nothing to 
assure access to either the pay or the paid time off they need to meet 
their family responsibilities.\3\
    Comp time, accepted freely and fairly and available on demand for 
non-vulnerable workers, may have a place in a suite of policy solutions 
to help workers and families. But H.R. 1406's brand of comp time is 
designed to benefit employers only. It does not offer any of the 
protections workers need. It is tone-deaf to what workers are 
experiencing right now.
    The following are our specific concerns about H.R. 1406.
H.R. 1406 Magnifies the Power Imbalance between Employees and Employers
    H.R. 1406 places significant power in the hands of employers, while 
limiting the ability of employees to earn the wages they need to 
support their families. It permits employers to offer comp time in lieu 
of overtime to one, some or all eligible workers. And although it 
requires an ``agreement'' between employers and employees, it does not 
give an employee wishing to remain in her or his employer's good graces 
any true ``choice.'' As a worker said recently in a focus group 
commissioned by the National Council of La Raza, ``[T]he employer can 
abuse you, can use you because you're scared to lose your job. You lose 
your job, they fire you, they'll get somebody else or two other 
people.'' \4\
    Few hourly workers--and almost none without union representation--
have real bargaining power in the workplace. These low-wage workers 
tend to rely on overtime pay to make ends meet. They also are at high 
risk for wage theft, where wages are withheld or reduced by 
unscrupulous or thinly capitalized employers.\5\
    In the current climate, in which Americans are deeply concerned 
about losing jobs or being unable to work enough hours to make ends 
meet,\6\ employees will be coerced into accepting comp time instead of 
pay, for fear of losing their livelihoods altogether. And, as I'll 
discuss in a moment, the comp time offered here may not even be 
available when workers need it, rendering this proposal a true wolf in 
sheep's clothing.
    This legislation would put workers at very real risk. An employee 
who does not accept comp time could find himself or herself penalized 
with fewer hours, non-preferred shifts and loss of overtime work. The 
employee's ``choice,'' then, would be to accept comp time instead of 
needed pay or, if he or she reasonably asks for pay for overtime work 
and faces retaliation, try to fight it in court. That is an unrealistic 
expectation for workers who fear losing their jobs and have no 
resources with which to litigate.
H.R. 1406 Would Mean Less Work for Some and More Work--and Extra 
        Expenses--for Others
    H.R. 1406 undermines the central tenets of Section 7 of the FLSA: 
creating reasonable work hours for all, and work and job opportunities 
for many. Because it is cheaper for employers to provide comp time than 
to pay overtime wages, there is a significant incentive for employers 
to hire fewer people and rely on overtime hours paid for in future comp 
time--to get work done. H.R. 1406 could translate into fewer jobs at a 
time when the economy needs more people working. And it would mean 
greater scheduling instability, uncertainty and unpredictability for 
workers who are asked to work overtime hours; potentially greater 
childcare and transportation expenses; and yet fewer dollars in 
workers' pockets to meet the additional costs and inconveniences that 
more overtime work would bring.
H.R. 1406 Means Less Paycheck Security for Employees and an Interest-
        Free Loan for Employers
    H.R. 1406 would permit employers to defer compensation--in money or 
time--to employees for as many as 13 months. In essence, comp time 
creates an interest-free loan for employers because employees who work 
overtime today may not see the value of that overtime for more than a 
year.
    The legislation allows employers to retain and earn interest on the 
wages they would otherwise have been obligated to pay. Although it is 
true that an employee can trade banked comp time for overtime pay, 
employers have a full 30 days to grant the request. That means that an 
employee who needs the overtime pay to make ends meet may have to wait 
a full month for it.
H.R. 1406 Fails to Provide the Time that Working People Need
    The worker flexibility offered by H.R. 1406 is nothing more than a 
mirage. That's because this proposal gives the employer, not the 
employee, the ``flexibility'' to decide when and even if comp time can 
be used. The plain language of the bill requires an employee to make a 
request in advance, gives the employer a ``reasonable period'' after 
the request is made to allow the employee to use the time, and permits 
the employer to deny the request entirely if the employee's use of comp 
time would ``unduly disrupt'' operations.
    This means that a mother who asks to take comp time to stay home 
with her toddler because her child care provider is sick has no 
guarantee that she'll be able to use the time she's earned and banked. 
And there is no guarantee that a son's request to use a week of comp 
time to help his aging parent relocate to a nursing home will be 
granted. Just as workers like Rosa, a hotel housekeeper, are denied the 
use of vacation leave they have earned for important family events like 
a daughter's communion,\7\ so too will workers be denied the use of the 
comp time they have earned through long hours on the job.
    If an employee's request is arbitrarily or unfairly delayed or 
denied, H.R. 1406 provides no recourse. There is no remedy under this 
proposal for an employee who is unable to use accrued comp time, except 
to ask that the time be cashed out. This is far from the kind of family 
friendly policies workers need.
H.R. 1406 Jeopardizes Employees' Wages When Firms Die
    All of this assumes the employer remains in business and employees 
can eventually use the time they've banked, or receive the cash 
equivalent when banked time is paid out. But H.R. 1406 provides no 
protections to employees when firms collapse or go bankrupt. As a 
result, a worker could lose the value of unused comp time--up to 160 
hours per employee, or more than $2,200 for a typical worker.\8\ The 
receipt of comp time in lieu of overtime could also have repercussions 
for employees seeking unemployment compensation.
    This significant loss of income would affect not just individual 
employees but--when large employers close their doors--whole 
communities. On average, more than three million employees lose their 
jobs each year when businesses close. Even at the peak of the last 
business cycle, about 600,000 firms employing 3.4 million workers went 
out of business in one year.\9\ And during the most recent recession, 
firm deaths outnumbered firm births across all sectors.\10\
H.R. 1406 Fails to Provide Affordable Remedies to Workers or Resources 
        to the Department of Labor
    Even under current wage and overtime law, unscrupulous employers 
regularly violate employees' rights to earn overtime payments because 
the benefits of non-compliance outweigh the financial liabilities. H.R. 
1406 would increase employers' incentives to ignore the FLSA's wage and 
overtime provisions. It does not provide administrative remedies for 
employees who have been coerced into accepting comp time or whose 
rights to freely choose comp time versus overtime payments have been 
violated. Instead, employees' only recourse is through the courts. But 
few low-wage workers have the resources to sue. And, as noted above, 
employees have no right at all to use the comp time they have accrued 
when they need it.
    In addition, H.R. 1406 adds significant new provisions to the FLSA 
and creates a new imperative for employee and employer outreach, but 
provides no additional funds for the education and enforcement efforts 
its new provisions will require. The U.S. Department of Labor's Wage 
and Hour Division already struggles to enforce the FLSA with too few 
investigators and too small a budget; recent fiscal pressures will only 
stretch DOL's resources even more.
    For each of these reasons--and because employees simply should not 
have to put in extra time beyond a 40-hour week and forgo pay simply to 
earn time to care for themselves or their loved ones--we ask you to 
reject H.R. 1406. It is a deeply flawed proposal that would cause 
massive harm to workers. It offers a false, flawed choice that would 
make times even tougher for workers and their families. It would be a 
giant step in the wrong direction for the country. We can do better.
Toward a More Family Friendly and Prosperous Nation: Public Policy 
        Solutions That Workers and Families Need Most
    We commend the committee for recognizing the important role that 
public policies can play in setting our nation's course. Too often, 
work-family conflicts are seen as individual struggles to be managed 
privately rather than as a common thread that connects virtually every 
working parent or adult child and that binds the interests of 
employees, employers and communities.
False Assumptions Have Impeded Our Progress
    For too long, a number of false assumptions have stood in the way 
of progress. The organized business lobby and other opponents have 
perpetuated the idea that family friendly policies are zero-sum, 
expensive and marginal to working families' economic stability and 
well-being. The opposite is true. Employees, families, businesses, 
taxpayers and government all have a stake in creating more family 
friendly workplaces and increasing the economic security of working 
families. I want to refute these false assumptions so we can move 
beyond them and consider the policy solutions working people need.
    The most egregious myth perpetuated by the organized business lobby 
is that expanding work-family policies harms employers. Done right, 
these policies can benefit business. Research confirms what working 
families and responsible employers already know: When businesses take 
care of their workers, they are better able to retain them. Workers 
paid fair wages have more ability to support local businesses. And 
workers with the security of paid time off and flexibility increase 
their commitment, productivity and morale--and employers reap the 
benefits of lower turnover and reduced training costs.\11\
    Studies show that the costs of losing an employee, including 
advertising for, interviewing and training a replacement, are often 
much greater than the cost of providing short-term leave to retain an 
existing worker. The average cost of turnover can range from 25 percent 
to 200 percent of an employee's annual compensation.\12\ This is why 
the Council of Economic Advisors in 2010 recognized the imperative for 
more flexible, family friendly workplaces. And this is why a growing 
number of businesses are supporting increases in the minimum wage and 
the establishment of paid sick days and paid family leave laws.
    A second, related myth is that humane leave policies are too costly 
for taxpayers. In reality, these policies provide cost-savings to 
governments as well as businesses. A recent study shows that if all 
workers had paid sick days, 1.3 million emergency room visits could be 
prevented each year in the United States, saving $1.1 billion annually. 
More than half of these savings--$517 million--would accrue to 
taxpayer-funded health insurance programs such as Medicare and the 
State Children's Health Insurance Program.\13\ In addition, both women 
and men who take paid leave after a child's birth are significantly 
less likely to rely on public assistance or food stamps in the 
following year.\14\ And women who take paid leave are more likely to be 
working nine to 12 months after a child's birth and to have higher 
earnings.\15\ Like other policies that promote higher wages and 
economic opportunity, paid leave helps grow the economy and the tax 
base while reducing reliance on public services.
    A third myth is that only women care about family friendly 
policies, which are marginal to families' economic security. Women 
remain our families' primary caregivers to children and elders. 
However, women are nearly half the workforce, men increasingly manage 
responsibilities at home as well as in the workplace, and both genders 
feel intense work-family conflict and need better ways to manage job 
and family responsibilities. Regardless of the gender of family 
caregivers, the absence of family friendly policies harms families 
financially.
    It is time to reject these absurd myths, which have been disproven 
time and again, and instead work together to adopt innovations that are 
long overdue. We do not need to require workers to subsidize their own 
time off with lower wages and more time on the job, as H.R. 1406 does. 
Instead, we need to adopt national policy solutions patterned on those 
working well in states and cities across the country.
    Paid sick days and paid family and medical leave would boost 
incomes and the economy and would, in many cases, lead to cost-savings 
over time for employers.
    The policies I'll discuss have strong popular support across the 
political spectrum. In a poll commissioned by the National Partnership 
last November, 86 percent of voters said it is important for Congress 
and the President to consider new laws to help keep working families 
economically secure, including ensuring workers the right to earn paid 
sick days and creating a system of paid family and medical leave 
insurance. Policies that would provide wage protections in the form of 
a higher minimum wage and fair pay for women have nearly universal 
support. Policies that would promote more flexibility and 
predictability for workers while recognizing the needs of business are 
overwhelmingly popular as well.
Families, Businesses and the Economy Will Benefit When Workers Are Paid 
        Fair Wages
    It is a huge problem for our country that the value of workers' 
wages has declined. That makes overtime pay even more important for 
workers who are able to work overtime. While H.R. 1406 would literally 
take money out of workers' paychecks, an increase in the minimum wage 
would promote greater financial stability.
    The Fair Minimum Wage Act (H.R. 377/S. 84) would increase wages for 
30 million workers, most of them women. Nearly 28 percent of those who 
would see a wage increase are parents; more than 17 million children 
have a parent who would benefit. A rise in the minimum wage would 
increase consumer spending, stimulating the economy. By the third year, 
when the minimum wage reaches $10.10 per hour, the Fair Minimum Wage 
Act would generate more than $32 billion in additional economic 
activity and approximately 140,000 jobs.\16\
    It is also a huge problem for the country that the gender-based 
wage gap is pervasive and unrelenting. Families headed by women pay an 
especially high price. Over the course of a year, wages paid to women 
with full-time, year round jobs average $11,000 less than the wages 
paid to men with full-time, year round jobs. That money could buy 89 
weeks of food or pay more than a year of rent.\17\ The disparity for 
African American women and Latinas is even greater than for white 
women.
    For many women who experience gender discrimination in wages, and 
whose families suffer as a result, overtime pay is key to financial 
stability. H.R. 1406 would further diminish their earnings by 
threatening these women's ability to earn overtime pay.
    In contrast, the Paycheck Fairness Act (H.R. 377/S. 84) would 
increase women's financial stability by promoting fair pay practices. 
It would help women challenge and eliminate discriminatory pay 
practices, help train women and girls in salary negotiation, support 
government collection of critical wage data, and reward employers that 
have good pay practices. If you want to help women and their families 
and level the playing field, you will pass the Paycheck Fairness Act.
Employees Must be Able to Earn Paid Sick Days to Protect Their Health 
        and Economic Security
    Everyone gets sick or needs medical care, for themselves or their 
families, at some point. While H.R. 1406 does nothing to assure that 
workers will have sick days when they need them, the Healthy Families 
Act (H.R. 1286/S. 631) would allow 90 percent of the private sector 
workforce to earn paid sick time to use when they need it.\18\ The 
Healthy Families Act would ensure that most of the 43 million workers 
who do not have any paid sick time could start to accrue it.\19\ It 
would allow workers to earn up to seven paid sick days annually to use 
to recover from short-term illness, care for a sick family member, seek 
routine medical care or obtain assistance related to domestic violence, 
sexual assault or stalking. Employers that already provide this type of 
leave would not have to provide additional sick time, and small 
businesses with fewer than 15 employees would be exempt.
    Families suffer when workers cannot earn paid sick time. For the 
average family without paid sick days, just a few days of lost income 
due to illness can jeopardize the families' grocery budget for an 
entire month.\20\ Nearly one in four adults nationwide has lost a job 
or been threatened with job loss for needing time away from work to 
address a personal or family illness.\21\
    The Healthy Families Act is a much more effective solution than 
H.R. 1406 in providing workers with the time they need to care for 
their loved ones and themselves. It guarantees employees the ability to 
use that time off while respecting employers' needs for stability in 
their business operations. For restaurant workers who cook our food, 
childcare workers who tend to our children and care workers who support 
the frail elderly, the Healthy Families Act would be a step forward 
while H.R. 1406 would be a step in the wrong direction. At a time when 
more than half of parents do not have even a few paid sick days they 
can use to care for an ill child \22\ and tens of millions of workers 
have family eldercare responsibilities,\23\ we need the real solutions 
the Healthy Families Act would provide.
    Paid sick days laws are working well around the country. San 
Francisco, Washington, D.C., and Seattle have successfully implemented 
paid sick days standards, as has Connecticut. Portland, Oregon, and New 
York City will have paid sick days standards in place next year. San 
Francisco's paid sick days law has been in place since 2007 and the 
number of businesses and jobs in the city has increased relative to the 
surrounding five counties.\24\ Workers and their families have 
benefitted with little to no burden on employers. In fact, two-thirds 
of San Francisco employers now support the city's paid sick days 
law.\25\
    But illness knows no geographic boundaries. Access to paid sick 
days should not depend on your zip code. We need a national standard. A 
working mother in Alabama and a working father in Virginia should have 
the same right as workers in Connecticut to take a day away from work 
to care for a feverish child, a parent with a broken hip, or to get 
medical care. The Healthy Families Act would guarantee that time. H.R. 
1406 would not.
Workers Need Paid Family and Medical Leave and Expanded FMLA 
        Protections During the Best and Worst of Times
    In addition to paid sick days to cover short-term needs, nearly all 
working men and women will need time away from their jobs at some point 
to care for a new child or seriously ill loved one or to address their 
own serious health condition. Tens of millions of workers cannot afford 
to take the time they need without some wage replacement,\26\ and H.R 
1406 would do nothing to address this urgent need. It does not even 
offer a guarantee that an expecting parent who planned carefully for 
time away from work to welcome a new child to the family--or a sister 
who wants to help a sibling through cancer treatment--would be able to 
take banked comp time to meet those needs. Despite rhetoric to the 
contrary, H.R. 1406 would not even ensure that a parent who wanted to 
use banked comp time to attend a parent-teacher conference would have 
that leave request granted.
    As prominent current and former lawmakers on both sides of the 
political aisle have noted recently in conjunction with the 20th 
anniversary of the Family and Medical Leave Act, it is time for the 
United States to adopt a national system of paid family and medical 
leave insurance and to expand unpaid, job-protected FMLA leave to cover 
more workers who need leave for more reasons.
    Only 11 percent of private sector workers have designated paid 
family leave through their employers,\27\ and fewer than 40 percent 
have personal short-term disability insurance through an employer-
sponsored plan.\28\ Only about 50 percent of first-time mothers can 
cobble together any form of paid leave, whether sick or vacation days, 
disability insurance, or something else. That number has been stagnant 
for a decade. Fewer than 20 percent of women with low levels of formal 
education have access to paid leave--and that number has not increased 
since 1961.\29\
    Adopting a national paid family and medical leave insurance 
program, similar to successful state programs, would: increase 
families' financial stability; promote better health outcomes for 
children, elders and caregivers; generate new tax revenues; and reduce 
burdens on the social safety net. In the year following a birth, new 
mothers who take paid leave are 54 percent more likely to report wage 
increases and 39 percent less likely to need public assistance than 
mothers who do not. Fathers who take paid leave are also less likely to 
need public assistance.\30\ Paid leave also safeguards the income and 
retirement security of workers with eldercare responsibilities who 
might otherwise have to drop out of the workforce. On average, a worker 
who is 50 years of age or older who leaves the workforce to take care 
of a parent will lose more than $300,000 in wages and retirement 
income.\31\
    To better understand the need for--and the potential power of--a 
national paid leave policy solution, we can look to the two states that 
have created paid leave insurance systems. California created the 
nation's first statewide paid family leave insurance program in 2002, 
and New Jersey followed in 2008. These programs were built upon those 
states' much older and well-established temporary disability insurance 
systems, which workers have been using for decades to take leave from 
work to address their own serious health conditions. Women who use 
California's paid family leave program are better able to arrange child 
care and to breastfeed their children for longer, both of which are 
associated with improved child well-being.\32\ Men are more likely to 
take leave now, sharing more equally in caregiving responsibilities 
with women.\33\ And California employers have been able to implement 
the program smoothly. About 60 percent have been able to coordinate 
their own benefits with the state program, which has likely led to cost 
savings.\34\ We believe this provides a model for a national paid 
family leave program.\35\
    For 20 years, the Family and Medical Leave Act has been an 
unqualified success, helping mothers and fathers, sons and daughters, 
and husbands and wives to take leave more than 100 million times. But 
according to the most recent Department of Labor data, slightly less 
than 60 percent of the workforce is eligible for FMLA leave, leaving 
tens of millions of workers vulnerable to job loss when family or 
personal needs arise.\36\ The comp time offered by H.R. 1406 would not 
fill this gap for workers who are not covered by the FMLA, despite 
rhetoric to the contrary.
    The FMLA should be updated. We need to extend its protections to 
employees in smaller businesses and to those who work part-time. The 
definition of ``family member'' should be updated to allow workers to 
take FMLA leave to care for a domestic partner, parent-in-law, adult 
child, sibling, grandchild or grandparent. Such an expansion would have 
allowed Anne-Marie Pearson, a conscientious worker in Pennsylvania, to 
have cared for her dying sister without having to leave her job. 
Similarly, it would help countless others care for close relatives in 
their final days.
    Expanding the FMLA in this way would not unduly burden employers. 
The vast majority of businesses report that complying with the FMLA has 
had a positive effect or no noticeable effect on employees and their 
business. In fact, 37 percent of worksites covered by the FMLA reported 
that compliance has had a ``positive effect'' on ``employee 
productivity, absenteeism, turnover, career advancement and morale, as 
well as the business' profitability.'' Half (54 percent) said 
compliance has had ``no noticeable effect.'' Many businesses are 
voluntarily making FMLA leave available to workers who are not 
covered.\37\
    The FMLA's promise of job protection should also be extended to 
address more circumstances. For example, H.R. 1406's sponsor and others 
have talked about comp time as the solution to a parent's need to 
attend a parent-teacher conference. A much more useful policy solution, 
and one that would help many more parents and children, is a ``small 
necessities'' expansion of the FMLA so that workers could take up to 24 
hours per year to attend school meetings, parent-teacher conferences 
and other essential educational activities. Separately, victims of 
domestic violence should be able to use FMLA leave to seek legal, 
medical and relocation services.
True Flexibility Would Reflect Employees' Needs for Predictability, 
        Notice and Fluidity in Scheduling as Well as the Right to 
        Refuse Overtime
    H.R. 1406 has the word ``flexibility'' in its title, but the 
flexibility it offers workers is an empty promise. A growing body of 
research shows that true flexibility and predictability--the ability to 
vary start and ending times, to work split shifts, and to have advance 
notice of scheduling--provides benefits for workers and cost-savings 
for employers. Nothing in the FLSA prohibits these best practices.
    It should be a priority to educate employers about the flexibility 
available under the FLSA and the benefits that flexibility provides. We 
should create disincentives for scheduling practices such as ``just in 
time'' scheduling and call-in shifts, which hold workers back, impede 
their productivity on the job, interfere with their caregiving 
responsibilities at home and create extra child care and transportation 
expenses. Public policies should protect workers who cannot work 
mandatory overtime and should offer protections to those who report to 
work or put other job opportunities on hold only to find out that they 
are not needed when they arrive at the job site. Policies that 
encourage predictability and advance notice, and discourage rigidity, 
are also needed.
Conclusion
    At a time when our nation's working families urgently need public 
policies that make our workplaces more fair and family friendly, H.R. 
1406 is an empty promise--a cruel hoax that would take the country in 
the wrong direction. It would make life appreciably harder for families 
that are already struggling, and no amount of misleading or deceptive 
rhetoric can soften the blow. For many workers, H.R. 1406 would bring 
less pay, less flexibility and workplaces that are even less family 
friendly.
    Instead of wasting time on smoke and mirrors to try to hide the 
real impact of this bill, I urge you instead to support the Healthy 
Families Act, paid family and medical leave insurance, expanded access 
to the FMLA, the Fair Minimum Wage Act, the Paycheck Fairness Act and 
proposals to encourage fairer, more predictable and more flexible work 
hours. These are the advances the nation needs. These are and the 
initiatives that would help our nation's workers and their families, 
employers, communities and our economy.
    Chairman Walberg, Ranking Member Courtney and members of the 
Committee, thank you for the opportunity to testify here today. With 
our many allies, and on behalf of America's workers, the National 
Partnership for Women & Families looks forward to working with you to 
adopt policies that are truly family friendly.
                                endnotes
    \1\ Lake Research Partners and the Tarrance Group. (2012, 
November). National survey of 1220 voters. (Unpublished data)
    \2\ National Partnership for Women & Families and Family Values @ 
Work. (2011, February). Los Angeles Workers Speak: The Employee Case 
for Flexibility in Hourly, Lower-Wage Jobs. Retrieved 5 April 2013, 
from http://www.nationalpartnership.org/site/DocServer/W--F--Workflex--
LA--Workers--Voice.pdf?docID=8241
    \3\ On the rise of part-time and contingent work, see Greenhouse, 
S. (2012, October 27). A Part-Time Life, as Hours Shrink and Shift. The 
New York Times. Retrieved 5 April 2013, from http://www.nytimes.com/
2012/10/28/business/a-part-time-life-as-hours-shrink-and-shift-for-
american-workers.html
    \4\ Lake Research Partners. (21 September, 2012). Focus Groups 
among Lower-Income Latinos in Florida.
    \5\ For worker stories of overtime and wage theft violations, see 
National Council of La Raza. (2011). We Needed the Work: Latino Worker 
Voices in the New Economy. Retrieved 3 April 2013, from http://
www.nclr.org/images/uploads/publications/JobQuality.pdf; Labor Council 
for Latin American Advancement. (2012). Trabajadoras: Challenges and 
Conditions of Latina Workers in the United States. Retrieved 3 April 
2013, from http://www.lclaa.org/images/pdf/Trabajadoras--Report.pdf
    \6\ Lake Research Partners. (2010). Community Voices on the 
Economy: Report from a Nationwide Survey of 1004 Adults. Retrieved 5 
April 2013, from http://www.lakeresearch.com/news/cv/CV--Report.pdf
    \7\ National Council of La Raza. (2011). We Needed the Work: Latino 
Worker Voices in the New Economy. Retrieved 3 April 2013, from http://
www.nclr.org/images/uploads/publications/JobQuality.pdf
    \8\ Based on the median hourly wage of $14.12 for an hourly worker 
aged 25+ in 2011, as reported in U.S. Bureau of Labor Statistics. 
(2012, October). Highlights of Women's Earnings in 2011, p. 46. 
Retrieved 5 April 2013, from http://www.bls.gov/cps/cpswom2011.pdf
    \9\ U.S. Census Bureau. (2012). Firm Births and Deaths by 
Employment Size of Enterprise: 1990--2007 (Table 765). Retrieved 5 
April 2013, from http://www.census.gov/compendia/statab/2012/tables/
12s0765.pdf
    \10\ U.S. Census Bureau. (2012). Establishment Births, Deaths, and 
Employment by Sector and Firm Type--Startups, Young, and Mature Firms: 
2009 (Table 764). Retrieved 5 April 2013, from http://www.census.gov/
compendia/statab/2012/tables/12s0764.pdf
    \11\ National Partnership for Women & Families. (2011, March). 
Taking Care of Business: The Business Benefits of Paid Leave. Retrieved 
5 April 2013, from http://www.nationalpartnership.org/site/DocServer/ 
W--F--Taking--Care--of--Business--March--Update.pdf?docID=8721
    \12\ Sasha Corporation. (2007). Compilation of Turnover Cost 
Studies. Retrieved 5 April 2013, from http://www.sashacorp.com/
turnframe.html
    \13\ Miller, K., Williams, C., & Yi, Y. (2011, October 31). Paid 
Sick Days and Health: Cost Savings from Reduced Emergency Department 
Visits. Institute for Women's Policy Research publication. Retrieved 5 
April 2013, from http://www.iwpr.org/publications/pubs/paid-sick-days-
and-health-cost-savings-from-reduced-emergency-department-visits
    \14\ Houser, L., &Varatanian, T. (2012, January). Pay Matters: The 
Positive Economic Impacts of Paid Family Leave for Families, Businesses 
and the Public. Rutgers Center for Women and Work Publication. 
Retrieved 5 April 2013, from http://smlr.rutgers.edu/paymatters-
cwwreport-january2012
    \15\ Ibid.
    \16\ National Women's Law Center. (2013, 20 March). Fair Pay for 
Women Requires Increasing the Minimum Wage and Tipped Minimum Wage. 
Retrieved 8 April 2013, from http://www.nwlc.org/resource/fair-pay-
women-requires-increasing-minimum-wage-and-tipped-minimum-wage
    \17\ National Partnership for Women & Families. (2013, April). 
America's Women and the Wage Gap. Retrieved 8 April 2013, from http://
www.nationalpartnership.org/site/DocServer/Wage--Gap--
National.pdf?docID=12421
    \18\ U.S. Congress Joint Economic Committee. (2010, March). 
Expanding Access to Paid Sick Leave: The Impact of the Healthy Families 
Act on America's Workers. Retrieved 8 April 2013, from http://
www.jec.senate.gov/public/index.cfm?a=Files.Serve&File--id=abf8aca7-
6b94-4152-b720-2d8d04b81ed6
    \19\ U.S. Bureau of Labor Statistics. (2012, March). Leave 
benefits: Access, private industry workers, National Compensation 
Survey (Table 32). Retrieved 3 April 2013, from http://www.bls.gov/ncs/
ebs/benefits/2012/ownership/private/table21a.pdf
    \20\ Gould, E., Filion, K., & Green, A. (2011, June). The need for 
paid sick days: The lack of a federal policy further erodes family 
economic security. Economic Policy Institute publication. Retrieved 8 
April 2013, from http://www.epi.org/publication/the--need--for--paid--
sick--days/
    \21\ Smith, T. and Kim, J. (2010, June). Paid Sick Days: Attitudes 
and Experiences. National Opinion Research Center at the University of 
Chicago for the Public Welfare Foundation publication. Retrieved 8 
April 2013, from http://www.publicwelfare.org/resources/DocFiles/
psd2010final.pdf
    \22\ Smith, K., & Schaefer, A. (2012, June). Who Cares for the Sick 
Kids? Parents' Access to Paid Time to Care for a Sick Child. Carsey 
Institute at the University of New Hampshire publication. Retrieved 8 
April 2013, from http://www.carseyinstitute.unh.edu/sites/
carseyinstitute.unh.edu/files/publications/IB-Smith-Paid-Sick-Leave-
2012.pdf
    \23\ National Alliance for Caregiving. (2009, November). Caregiving 
in the U.S. National Alliance for Caregiving and AARP publication. 
Retrieved 8 April 2013, from http://www.caregiving.org/data/
Caregiving--in--the--US--2009--full--report.pdf
    \24\ Petro, J. (2010, March). Paid Sick Leave Does Not Harm 
Business Growth or Job Growth. Drum Major Institute for Public Policy 
publication. Retrieved 8 April 2013, from http://
paidsickdays.nationalpartnership.org/site/DocServer/Petro--DMI--Paid--
Sick--Leave--Does--Not--Harm--2010--Unabbr--.pdf?docID=7721
    \25\ Drago, R. & Lovell, V. (2011, February). San Francisco's Paid 
Sick Leave Ordinance: Outcomes for Employers and Employees. Institute 
for Women's Policy Research publication. Retrieved 8 April 2013, from 
http://www.iwpr.org/publications/pubs/San-Fran-PSD
    \26\ Abt Associates Inc. (2012, September 6). Family and Medical 
Leave in 2012: Technical Report. Retrieved 8 April 2013, from http://
www.dol.gov/asp/evaluation/fmla/FMLATechnicalReport.pdf
    \27\ See note 19.
    \28\ U.S. Bureau of Labor Statistics. (2012, March). Insurance 
benefits: Access, participation, and take-up rates, private industry 
workers, National Compensation Survey (Table 16). Retrieved 8 April 
2013, from http://www.bls.gov/ncs/ebs/benefits/2012/ownership/private/
table12a.pdf
    \29\ Laughlin, L. (2011, October). Maternity Leave and Employment: 
Patterns of First-Time Mothers 1961-2008. U.S. Census Bureau 
publication. Retrieved 8 April 2013, from http://www.census.gov/prod/
2011pubs/p70-128.pdf
    \30\ See note 14.
    \31\ MetLife Mature Market Institute. (2011, June). The MetLife 
Study of Caregiving Costs to Working Caregivers: Double Jeopardy for 
Baby Boomers Caring for Their Parents. Retrieved 8 April 2013, from 
https://www.metlife.com/assets/cao/mmi/publications/studies/2011/mmi-
caregiving-costs-working-caregivers.pdf
    \32\ Appelbaum, E., & Milkman, R. (2011). Leaves That Pay: Employer 
and Worker Experiences with Paid Family Leave in California. Center for 
Economic and Public Research publication. Retrieved 8 April 2013, from 
http://www.cepr.net/documents/publications/paid-family-leave-1-2011.pdf
    \33\ Ibid.
    \34\ Ibid.
    \35\ National Partnership for Women & Families. (2013, February). 
The Case for a National Family and Medical Leave Insurance Program (The 
FAMILY Act). Retrieved 9 April 2013, from http://
www.nationalpartnership.org/site/DocServer/FAMILY--Act--Fact--
Sheet.pdf?docID=11821
    \36\ See note 26.
    \37\ Ibid.
                                 ______
                                 
    Mrs. Roby. Thank you, Mrs. Lichtman. I apologize for 
mispronouncing your name before.
    Ms. Lichtman. That is okay. Not a problem.
    Mrs. Roby. Mr. Brantley, you are recognized for 5 minutes.

  STATEMENT OF ANDY BRANTLEY, PRESIDENT AND CEO, COLLEGE AND 
    UNIVERSITY PROFESSIONAL ASSOCIATION FOR HUMAN RESOURCES

    Mr. Brantley. Good morning, distinguished members of the 
subcommittee. Thank you for holding the hearing today and for 
the opportunity to testify on this important issue.
    I am privileged to be the president and chief executive 
officer of the College and University Professional Association 
for Human Resources, otherwise known as CUPA-HR.
    Prior to joining CUPA-HR, I led HR organizations for the 
University of Georgia, Davidson College, and the University of 
North Carolina at Asheville.
    CUPA-HR serves as a voice of higher education human 
resources professionals representing more than 16,000 HR 
professionals across the country at over 1,900 colleges and 
universities both private and public. Higher education employs, 
over 3.7 million workers nationwide.
    We applaud the chairman and the subcommittee for holding 
this hearing and the leadership of Representative Martha Roby 
of Alabama for introducing the Working Families Flexibility Act 
of 2013.
    As an entity, higher education institutions are extremely 
complex. They may be comprised of teaching hospitals, research 
facilities, agricultural operations and more, all of which 
compliment extensive academic program offerings.
    As a result, colleges and universities are often not only 
the largest employers in many communities, but also the largest 
employers in their state; employing a very skilled, very 
diverse workforce of faculty and staff.
    Colleges and universities strive to offer competitive 
benefits for employees and to sponsor work/family and work/life 
programs that support employee needs away from the workplace.
    I have several examples from my past that illustrate this 
point. To meet the needs of the University of Georgia employees 
we provided a wide range of paid leave policies for all of our 
employees. Additionally, we offered employees the choice of 
receiving compensatory time or overtime pay for working in 
excess of 40 hours.
    Based on my conversations with the University staff, 
compensatory time was an important and valued option at UGA. I 
am sure that is still the case and I have heard the sentiment 
echoed by many of my CUPA-HR members and colleagues who work at 
public universities.
    While some employees used compensatory time to deal with 
catastrophic occurrences or family crises, more often than not, 
nonexempt employees at UGA used compensatory time to meet the 
everyday work/family and work/life challenges.
    One employee from our college of veterinary medicine used 
compensatory time to run the little errands that often needed 
to get done in balancing work and family challenges including 
visits to the doctor for her children.
    By using accumulated compensatory time, this employee was 
able to allow sick leave to accumulate to be used for those 
times when her children really were sick and were not able to 
go to daycare.
    In 1996, the city of Atlanta hosted the Summer Olympics. 
Several of the Olympic events were held in and around Athens, 
which required the campus to be closed. In the months preceding 
the Olympics, our nonexempt staff accumulated comp time to 
offset the time there that they would be unable to work because 
of the games.
    This allowed employees to keep their accrued leave intact 
and, in some cases, prevented staff from having to go on leave 
without pay because they did not have enough accumulated leave 
time.
    While neither of these examples is extraordinary in its 
application, each clearly demonstrates the flexibility that is 
provided through a compensatory time program. I can recall 
several examples from Davidson College where the use of comp 
time would have been extremely helpful to employees. Here is 
one example:
    During the 2000 calendar year an extremely hard-working 
catering assistant who typically worked overtime on a weekly 
basis was diagnosed with cancer. Time off for chemotherapy and 
then radiation treatments quickly consumed all of his accrued 
vacation and sick leave and forced this employee into long-term 
disability status.
    If Davidson had been permitted to offer this employee the 
choice of receiving pay or comp time, this particular 
individual while still able to work, may have chosen to receive 
comp time to extend the period of time he was able to remain in 
a full pay status with the college.
    This is just an example of the kinds of situations that 
arrive on private campuses each week. I am not saying that comp 
time is the answer for everyone, but the use of comp time can 
provide needed flexibility.
    During a conversation just last week, the chief HR officers 
at two private universities echoed the sentiment I have just 
shared with you; HR regularly receives requests for greater 
flexibility that cannot be granted due to the FLSA.
    Based on my personal experience leading HR organizations 
and my conversations with CUPA-HR members, the requests for 
comp time frequently come from single parents and those dealing 
with catastrophic illness. Comp time is just one more way for 
us to assist those employees during tough times when they need 
a little more flexibility.
    From my perspective, having worked in both public and 
private university human resources operations and as president 
of the association representing HR in higher ed, I believe 
employees at private campuses should be afforded the same 
flexibility that their public-sector counterparts enjoy.
    Mr. Chairman, thank you so much for the opportunity to 
comment and to offer CUPA-HR support for the Working Families 
Flexibility Act. I will be happy to answer any questions. Thank 
you.
    [The statement of Mr. Brantley follows:]

  Prepared Statement of Andy Brantley, President and Chief Executive 
  Officer, College and University Professional Association for Human 
                               Resources

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. Thank you for holding this hearing today and for the 
opportunity to testify on this important issue. I am Andy Brantley, 
president and chief executive officer of the College and University 
Professional Association for Human Resources, known as CUPA-HR. Prior 
to joining CUPA-HR seven years ago, I was associate vice president for 
human resources for the University of Georgia (UGA) in Athens, Georgia. 
Before my arrival at UGA in January 2001, I served as the assistant 
vice president for business administration and director of human 
resources at Davidson College, a private college in Davidson, North 
Carolina.
    CUPA-HR serves as the voice of human resources in higher education, 
representing more than 16,000 human resources professionals at over 
1,900 colleges and universities across the country, including 92 
percent of all United States doctoral institutions, 77 percent of all 
master's institutions, 57 percent of all bachelor's institutions, and 
nearly 600 two-year and specialized institutions. Higher education 
employs over 3.7 million workers nationwide, with colleges and 
universities in all 50 states.
    Representing both public and private colleges and universities, 
CUPA-HR is well positioned to discuss the use of compensatory time in 
the public sector and its possible application to the private sector. 
We applaud the Chairmen and the Subcommittee for holding this hearing 
and the leadership of Representatives Martha Roby of Alabama for 
introducing the ``Working Families Flexibility Act of 2013.'' As I 
understand it, the act would give private employers, including private 
colleges and universities, the opportunity to offer non-exempt 
employees the choice of compensatory time off instead of overtime pay 
in situations where the employee is eligible for overtime.
    As an entity, higher education institutions are extremely complex 
organizations. They may be comprised of teaching hospitals, research 
facilities, agricultural operations and more, all of which compliment 
extensive academic program offerings. As a result, colleges and 
universities are often not only the largest employers in many 
communities, but also the largest employer within a state; employing a 
very skilled, very diverse workforce of faculty and staff. Most 
colleges and universities strive to be progressive employers, offering 
or attempting to offer generous benefits packages and innovative 
policies that make our campuses desirable places to work. In fact, they 
are often considered to be an employer of choice in a community.
    To meet the diverse needs of our faculty and staff, colleges and 
universities strive to offer competitive welfare and healthcare 
benefits to employees and to sponsor work-family/life programs that 
support employee needs away from the workplace. Educational 
institutions offer these work-family/life policies and welfare benefits 
as a way to recruit and retain a highly skilled, quality workforce. 
These policies and benefits constitute our leading, competitive edge 
over the for-profit sector for employees, since higher education 
institutions typically offer a lower compensation package than for-
profit organizations. However, being very comprehensive organizations, 
colleges and universities realize that flexibility in the workplace is 
fundamental in trying to meet the needs of the employee and mission of 
the institution. This is especially true as employees try to balance 
the competing pressures of work, family and personal needs.
    I have several examples from my own past that illustrate this 
point. The University of Georgia has an enrollment of more than 32,000 
students. As a comprehensive land-grant and sea-grant institution, UGA 
offers baccalaureate, master's, doctoral and professional degrees in 
the arts, humanities, social sciences, biological sciences, physical 
sciences, agricultural and environmental sciences, business, 
environmental design, family and consumer sciences, engineering, forest 
resources, journalism and mass communication, education, law, medicine, 
pharmacy, social work, and veterinary medicine. At the time of my 
employment at UGA, we had more than 17,000 faculty, staff and students 
on the payroll each month to operate our programs and achieve our 
educational mission. Our workforce was diverse as were the needs of our 
employees. UGA was and still is the largest employer in Athens and one 
of the largest in the state.
    To meet the needs of our employees, UGA provided a wide range of 
paid leave policies to all our employees. These policies included sick 
and vacation leave, as well as short- and long-term disability leave 
policies with pay. We also offered a number of unpaid leave policies 
that enabled the employee to substitute accrued paid leave for unpaid 
leave. The university also offered its employees several alternative 
work arrangements including flextime, compressed workweek, job sharing, 
9- or 10-month work schedules and telecommuting arrangements.
    Additionally, we offered employees the choice of receiving 
compensatory time or overtime pay for working in excess of 40 hours. As 
you are well aware, under the Fair Labor Standards Act, known as the 
FLSA, public employers, including colleges and universities, have the 
ability to choose compensatory time or overtime pay to compensate 
employees for hours worked in excess of 40 hours per week. Each time an 
employee at UGA worked more than 40 hours in a week, he or she had the 
option of receiving overtime pay, or with supervisor's approval, 
compensatory time off. Based on my conversations with university staff, 
compensatory time was an important and valued option at UGA. I am sure 
that is still the case and have heard the same sentiment echoed over 
the years by the many CUPA-HR members who work in public universities 
that offer employees the option of compensatory time off.
    While some employees used compensatory time to deal with 
catastrophic occurrences or family crises, more often than not, non-
exempt employees at UGA used compensatory time to meet the everyday 
challenges presented in balancing work-family issues. One employee on 
our campus at the College of Veterinary Medicine used compensatory time 
to do the ``little errands'' that often need to get done in balancing 
work-family, including visits to the doctor for her children. Although 
a visit to the doctor can be brief, to a parent who is working it 
requires picking the child up from daycare, taking the child to the 
doctor's office, getting a prescription filled at the pharmacy, 
returning the child to daycare, and then returning to the office. By 
using accumulated compensatory time, this employee is able to allow 
sick leave to accumulate and be used for those times when her children 
are not well enough to go daycare.
    In 1996, the city of Atlanta hosted the Summer Olympics. Several of 
the Olympic events were held in and around Athens, which required the 
campus to be closed. With UGA closed, faculty and staff were unable to 
work and were forced to use their accrued leave time to avoid being in 
a leave-without-pay status. In the months preceding the Olympics, our 
non-exempt staff accumulated compensatory time to offset the time they 
would be unable to work because of the games. This allowed employees to 
keep their accrued leave intact and in some cases, prevented staff from 
having to go on leave without pay because they did not have much 
accumulated annual leave.
    While neither of these examples is extraordinary in its 
application, each clearly demonstrates the flexibility that is provided 
through a compensatory time program. Unfortunately, only public sector 
colleges and universities can offer these programs. Private colleges 
and universities are prohibited from offering these programs to their 
employees. While private institutions offer a variety of work-life 
policies, situations arise on a campus in which the employee would 
benefit if the institution had the ability to offer compensatory time 
off instead of pay in overtime situations. I can recall several 
examples while at Davidson College where the use of compensatory time 
would have been extremely helpful to employees. Let me provide you with 
two examples:
    The Davidson College admissions office staff work long hours during 
December and January, earning overtime pay. On several occasions, non-
exempt employees in the admissions office have asked about the 
possibility of receiving compensatory time instead of overtime pay. 
Several members of the staff wished to accumulate compensatory time to 
use later during the spring--after the completion of the stressful 
admission process. As Davidson's director of human resources, I had no 
option but to instruct the vice president of admissions to continue the 
payment of overtime.
    During the 2000 calendar year, an extremely hard-working catering 
assistant who worked overtime on a weekly basis at the college was 
diagnosed with cancer. Time off for chemotherapy and then radiation 
treatments quickly consumed all of this employee's vacation and sick 
leave and forced the employee into a long-term disability status. If 
Davidson College had been permitted under the FLSA to offer this 
employee the choice of receiving pay or compensatory time for hours 
worked beyond 40, this particular individual, while still able to work, 
may have chosen to receive compensatory time to extend the period of 
time he was able to stay in a full pay status with the college.
    This is just a sampling of the kinds of situations that arise on 
private campuses each week, cases in which the ability of someone to 
accumulate compensatory time would be beneficial to employees. I am not 
saying compensatory time will be the answer for everyone. But while I 
was at Davidson, employees regularly requested greater flexibility in 
work arrangements to better cope with pressing family, personal and 
professional development needs. The use of compensatory time can 
provide that flexibility.
    Recently, a senior HR officer at another private university relayed 
to me that:
    We regularly get requests from our hourly wage staff or their 
managers responding to staff questions to consider comp time in lieu of 
overtime pay, often in the context of workplace flexibility. Work 
schedule flexibility can be a challenge for hourly staff, in that their 
work is frequently more dependent on workplace presence with particular 
schedules. So in times when excess time is worked, the option to 
provide comp time when schedules can be flexed gives the wage earner 
more flexibility. It can make a difference in the work-life balance, in 
ways such as, ``I have an hour of overtime this week, can I take time 
off later in the next week to leave work early or take time during the 
day to take care of personal tasks?'' It may mean that the employee 
uses less of his or her sick leave or personal days if some flexibility 
for comp time is provided within a pay period rather than a pay week.
    Similarly, another CUPA-HR member, who is also a senior HR officer 
at a private university, told me:
    Private institutions would appreciate the same comp time benefit as 
that offered to public entities. Because we do not have this 
flexibility, we often find ourselves unable to accommodate special 
requests when an employee knows they need to be out a few hours one 
week and would like to make up the hours another time so as not to have 
to use hours from a paid leave account that they are saving for 
something else. For our university, there are annual events such as 
commencement where the workload is heavy the week of commencement and 
very light in the weeks following. The availability of comp time in 
these situations could work to the benefit of employees and employer 
alike. While we have a generous paid leave plan, it just makes sense to 
give employees compensable work flexibility depending upon their needs 
and the needs of the institution. Managed responsibly, it is a win-win.
    Based on my personal experience as an HR officer and my 
conversations with CUPA-HR members, the request for comp time 
frequently comes from single parents. Second in frequency is from those 
who are dealing with catastrophic illness. Higher education 
institutions generally have very generous paid leave benefits. But comp 
time is one more way to assist and support employees during a tough 
time in their personal lives when they want to work but require a 
little more flexibility.
    As the associate vice president for human resources at UGA, 
offering employees the choice of compensatory time or pay for overtime 
situations meant some extra administrative duties for my staff and 
other departments of the university--keeping track of time earned, 
explaining to employees their option of choosing compensatory time 
versus overtime pay, and scheduling the time off. Even with the 
additional recordkeeping requirements and paperwork burden placed on 
the university's administrative staff, I was pleased that UGA provided 
employees the option to choose between accruing compensatory time or 
receiving overtime pay. We offered this choice not only for altruistic 
reasons, but it helped UGA meet its academic mission. CUPA-HR members 
from public universities have similar sentiment, regularly informing me 
that, while tracking and paperwork poses challenges, they are pleased 
to be able to offer compensatory time to their employees.
    From my perspective, having worked for both a public and a private 
university in human resources and as the president of an association 
representing HR in higher education, I believe employees at private 
universities should be afforded the same flexibility that their public 
sector counterparts enjoy to help meet their own work-family needs by 
allowing all employees the opportunity to have the choice between 
compensatory time and overtime pay.
    Mr. Chairman, thank you again for the opportunity to comment and 
offer CUPA-HR's support to the Working Families Flexibility Act. I will 
be happy to answer any questions from you or other members of the 
Committee.
                                 ______
                                 
    Mrs. Roby. Thank you very much.
    We will now go to Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Madam Chairwoman.
    And I thank you all for being here today. It is a very 
enlightening testimony. A special hello to our friends at 
Davidson College. I live right down the road. My alma mater 
UNC-Charlotte plays them in a lot of sports, so I appreciate 
that.
    I would love to direct my question to Ms. DeLoach. I am 
interested in sort of the employer perspective on this. Do you 
think employers will see this as a benefit that can be used to 
attract employees to a business that can offer this type of 
flexibility?
    Ms. DeLoach. Yes, I do. I think that it would be another 
perk that they could offer. Employers now--my employers offer a 
certain amount of vacation and sick time. That is at their 
discretion to make that available to anyone they employ.
    If they could add the comp time, I just think it would make 
it that much more attractive. It is an option, just another 
option for them, and I think that in all fairness, I think they 
should be allowed to offer that.
    Mr. Hudson. So, in your opinion you think employers would 
like to have this as something they could offer.
    Ms. DeLoach. Yes I do. I actually have spoken with my 
employer about it. I had a situation come up, specifically with 
the mission trip. We nearly butted heads about it because I 
didn't even realize that--when this came up I didn't realize it 
was illegal and I asked, ``can I work ahead before I go? Can I 
work some more when I get back?''
    ``Yes, you can, but we are going to pay you overtime if you 
go over 40 hours in that week and if you don't have any 
available leave time'' They couldn't change it in midstream and 
say will now we are going to award you 3 weeks' vacation.
    It was already policy that was set in motion and so I 
didn't get to do it the way that I thought sounded logical. I 
have friends that work for the state and I knew that they 
talked about comp time and I just thought it would be nice to 
be able to do something like that, having no idea that it could 
be illegal.
    So I think they would love to be able to offer that. They 
have got more than one employee there who would enjoy that. We 
have got people who have family members they need to take care 
of, not just their children, one who has a sibling that she is 
the guardian for. Things may arise.
    She has just started working there and she couldn't have 
accrued vacation time yet to be able to take that time, and 
these things don't always arise where you could say it is going 
to happen within the same week. If it doesn't happen within the 
same week, then you can't just work it out and have your pay 
stay the same.
    Mr. Hudson. That makes sense. What other conversations have 
you had with your other coworkers? Are there other examples of 
some of your coworkers who had similar experiences where they 
would have benefited from this?
    Ms. DeLoach. Well, yes. And actually, this particular 
coworker came to me when we were talking about this bill with a 
concern about it. She has a daughter and, you know, would love 
to be able to use that time that way but then she had a concern 
that her husband is an electrician and the overtime that he 
makes, in dollars, is important to their family and it is kind 
of a regular thing so they depend on it.
    She wanted to know if this comes into play is it going to 
limit his overtime pay that he gets and I said, ``read the 
bill.'' It is the option of the employee. He can say whether he 
wants to have pay for that or hours for that. She could still 
have her hours and he could still have the dollars and that 
would work for that family in particular.
    Mr. Hudson. Great. Well, thank you so much for your 
testimony.
    And Madam Chair, I appreciate your work on this bill and I 
am proud to be a supporter of this legislation.
    Thank you. I yield back the balance of my time.
    Mrs. Roby. Thank you, Mr. Hudson.
    Mr. Courtney, you are recognized for 5 minutes.
    Mr. Courtney. Thank you, Madam Chairman and you look pretty 
good with a gavel up there. I am sure Judge Roby, your father, 
would be proud to see you in that position.
    Ms. Lichtman, again, when we are talking about--as someone 
who was an employer for 27 years and had a workforce that had 
issues, you know, that requiredtime off, again, if an employee 
goes to employer and says you know, ``I have got X, Y, Z issue 
that I need to spend some time away from work,'' I, as an 
employer, had those conversations. There is nothing that is 
illegal about having--as an employer giving that person that 
time off as a matter of law.
    I mean, that really is existing law that permits employers 
to do that. It may--there may be policies within a specific 
firm, but that is certainly nothing that is dictated by federal 
law that says, ``No, I am sorry I can't give you that time 
off.''
    Ms. Lichtman. That is absolutely right. The Fair Labor 
Standards Act today would allow employers and employees to 
negotiate for exactly that kind of flexibility and there is 
nothing illegal about it.
    Mr. Courtney. So the only legal issue here is really 
whether or not at that same employee who, you know, the 
following week maybe works 45 hours, you know, whether I can go 
back and say, ``Well, remember that day you took off last week? 
You know, I am not going to pay you time and half for the extra 
hours you worked this week.''
    And I mean, that is really the issue here about whether or 
not that request for comp time should be traded off in terms of 
denying people their time and a half that the Fair Labor 
Standards Act presently protects. Isn't that correct?
    Ms. Lichtman. I think that is absolutely right, 
Congressman. And like a lot in life, the question is who 
decides and under 1406, the employer decides and that directly 
undermines the 75-year-old Fair Labor Standards Act, which 
gives both employers and employees the kind of flexibility so 
that they can--and especially the employee--can figure out what 
is it that they need at any given time, the time or the money. 
1406 undermines that very flexibility that the Fair Labor 
Standards Act intended.
    Mr. Courtney. So moving forward, I mean, and again, we just 
celebrated the 20th anniversary of the Family Medical Leave 
Act, again, Senator Dodd's hallmark bill----
    Ms. Lichtman. We did.
    Mr. Courtney [continuing]. Again, bipartisan lawmakers have 
come together and talked about ways that we can sort of build 
on that success. Again, there is a lot of good ideas out there 
to try and accommodate issues like we just heard, you know, 
where employees are doing good things and, you know, want to 
have that flexibility.
    What are some of those ideas which would get there without 
sacrificing people's overtime?
    Ms. Lichtman. There are some tried and now true public 
policies that have worked. I talked about the Healthy Families 
Act, paid sick days, which exists in your state of Connecticut 
and many cities across this country.
    Certainly expanding family and medical leave so that more 
people could take it for more reasons, including taking it off 
so that parents could go to parent-teacher conferences or to 
help a family member; expanding it to more family members like 
siblings, so that a worker could help a sibling or a 
grandparent or a grandchild.
    Certainly increasing the minimum wage, passing the Paycheck 
Fairness Act, we have begun a very important discussion about 
paid family leave insurance to the extent that family and 
medical leave in these past 20 years have been used 100 million 
times, and when people don't use it they say they don't use it 
because they say they can't afford to take it.
    So looking at states like New Jersey and California and 
building in a system of insurance so that employers could--
employees could actually earn the time for paid leave is a 
very, very important public policy that we know works.
    Mr. Courtney. Thank you. I mean, again, that really I think 
is really where this discussion ought to be, because you know 
as the Equal Pay Act celebration or commemoration--I couldn't 
call it celebration,--observance the other day clearly showed 
women still are earning roughly about 75 percent of their male 
counterparts in equivalent work, and this bill does nothing to 
narrow that gap.
    I would argue that in fact you are almost putting at risk 
ofgoing backwards, and so we--flexibility is a critical item. 
Again, as somebody who was an employer for 27 years, I have 
first-hand experience with that, but there is a better way to 
get there than this measure.
    And with that, I yield back, Madam Chairman.
    Ms. Lichtman. Thank you.
    Mrs. Roby. Dr. DesJarlais, you are recognized for 5 
minutes.
    Mr. DesJarlais. Thank you, Madam Chairman, and certainly I 
commend you on your work on this important issue in this age of 
ever-expanding federal government that seems to intrude more 
and more into our lives.
    I think that there is a real frustration among the private 
sector when the federal government tells them what is best for 
them yet doesn't live by the same rules.
    Mr. Brantley, I am happy to welcome a fellow Tennessean to 
the panel today and I think you have a real unique perspective 
and are very familiar with the use of comp time in the public 
sector.
    Is there any reason why private-sector universities and 
colleges should be treated differently than their public-sector 
counterparts for the purpose of comp time?
    Mr. Brantley. Thank you, Representative DesJarlais. There 
absolutely should be no distinction whatsoever and the examples 
that I provided in my testimony comparing both the experience 
at Davidson College, a private employer, versus the University 
of Georgia, clearly emphasize that there really should be no 
difference.
    The examples that some of my colleagues at the table here 
also provided in terms of the difference in the public sector 
whether it be federal government or whether it be state 
entities being allowed to provide comp time when their 
colleagues and friends at private institutions and private 
employers are not able to do so. So absolutely no difference 
whatsoever.
    Mr. DesJarlais. Okay. Opponents of legislation often 
suggest that it is a no-cost way for employers to avoid paying 
overtime. Do you agree?
    Mr. Brantley. I do not agree that it is a no-cost way to 
not pay overtime as an employer.
    If you think about it from the standpoint of public 
institutions, public employers, there is truly a cost every 
time someone is not at work whether that person is not at work 
due to comp time or whether that person is not at work due to 
illness, vacation, etcetera.
    There is also clearly an administrative burden that is 
required of employers. Our opinion on this is that it is 
another tool in the toolbox. It is another way for us to 
emphasize to our employees our flexibility, our concern for 
them and their unique needs, and our ability to help them meet 
unique needs on an ongoing basis.
    Mr. DesJarlais. In the--in past debates on this issue, 
concerns have been raised with the bill's provision that an 
employee may take paid time off so long as it does not unduly 
disrupt the operations of the employer. In your experience, has 
this been any significant problem?
    Mr. Brantley. Absolutely not, and if you think about 
employers such as Mr. Courtney, my hope would be that most 
employers would have the same approach that he would have in 
terms of working collaboratively with their employees to find 
times that were amenable for both an employee and the employer.
    In my experience also, employees are committed to their 
organizations so they know the ebb and flow of the work and are 
going to work with their employer in terms of requesting that 
time off, in terms of meeting their unique needs, but also 
clearly understanding the challenges faced by their employers.
    Mr. DesJarlais. Ms. Lichtman's testimony states that H.R. 
1406 brand of comp time is designed to benefit employers only. 
I am assuming that you don't agree with that?
    Mr. Brantley. Absolutely not, and I think some of the 
examples that I just provided clearly emphasize that this is 
definitely not something that benefits employers as much as it 
benefits employees and our ability to provide more flexibility 
for their unique needs.
    Mr. DesJarlais. Do you think that this legislation would 
undermine the 40-hour workweek?
    Mr. Brantley. Absolutely not. In fact, there are examples 
now in the private sector where employers who offer overtime 
then come to their employees weeks later and say your workweek 
is shorter this week because we paid more overtime and we are 
at the limit for our budget for compensation so your workweek 
this week is less than it was a few weeks ago.
    Our contention with this is very clearly that nonexempt 
employees want the same opportunity to have a level paycheck 
that their exempt counterparts have on a weekly basis.
    Mr. DesJarlais. Thank you.
    That is all I have. I yield back.
    Mrs. Roby. Thank you.
    Mr. Bishop, you are recognized for 5 minutes.
    Mr. Bishop. Thank you, Madam Chair, and thank you for 
holding this hearing.
    And thank you to our panel for their testimony. I have to 
confess that I have a very hard time being objective about this 
issue. It is a very personal issue for me because I believe 
that I sit here today as a result of paid overtime.
    My father worked 70, 80, 90 hours a week--I am not 
exaggerating--week in and week out because he wanted his five 
kids to have an opportunity that he never had, which was to go 
to college.
    And he didn't work overtime because he didn't love his 
family, didn't work overtime because he didn't love spending 
his time with his family, he worked overtime because the way he 
wanted to express his love was, as I say, to give us an 
opportunity that he never had, and he had that opportunity 
because the law provided him with that opportunity.
    And so I worry about something that would undermine a 
practice that is, was vital not just to my family but to tens 
of thousands of families in terms of getting ahead in providing 
a decent life.
    Mr. Brantley, not to make you work overtime, you just 
answered a lot of questions, but I want to pose for you a 
potential circumstance that is one of the things that gives me 
pause about this legislation and very candidly, what gives me 
pause about this legislation, among other things, is that if an 
employer has overtime needs and has multiple employees who wish 
to address that overtime, it would seem to me the temptation 
for the employer to assign the overtime to that employee who is 
willing to take compensatory time as opposed to cash is pretty 
pronounced.
    So let's take Davidson College. Now I know Davidson College 
is pretty well-endowed, but I would imagine that they have to 
worry about every dime that they spend.
    Let's say graduation is on a Sunday. Let's say that you 
need 10 custodians to work graduation and let's say 15 
custodians say that they are willing to put in the overtime; 10 
of them say they are willing to do it for compensatory time, 
five of them say they are willing to do it, but they want cash 
payment.
    Now I would think that the temptation for the director of 
physical plant or the VP for administrative affairs or 
financial affairs would be to give the overtime to the 10 who 
are willing to do it for compensatory time as opposed to cash. 
Am I right?
    Mr. Brantley. No.
    Mr. Bishop. No?
    Mr. Brantley. I disagree. I think one of the things with 
this legislation that I think is really important is that first 
of all, I come from a family that lived paycheck to paycheck. 
So I have a father that also worked significant overtime and 
part of that allowed me to be able to attend college and 
allowed me to have some of the benefits that I have today.
    If we take the Davidson College example, thinking about 
what is happening on campus at that point in time, having the 
opportunity to pay overtime to employees that want to have the 
overtime because you do need staffing the following week versus 
that group of employees that would prefer to have the comp time 
when you might not need to have----
    Mr. Bishop. Stop right there. You do need employees the 
following week and there is absolutely nothing in this 
legislation that would allow the person who is taking 
compensatory time to say, ``I am taking next week off,'' 
because the employer schedules when the compensatory time takes 
place.
    Mr. Brantley. Absolutely.
    Mr. Bishop. And look, I used to run a college, okay? We 
were very, very good at being not-for-profit, okay? And if we 
had had to make that decision, it would have been incredibly 
tempting for us to schedule the overtime for the custodian who 
says I am willing to take time and a half as opposed to the 
custodian who says I want my time and a half in cash.
    So--and so my concern is that we are going to 
discriminate--given how tight choices are and how much every 
dollar has to be watched, we are going to discriminate against 
employees who want what they have earned. They want cash.
    And my further concern is that when those who are willing 
to take the compensatory time want to take it, the employer may 
say, ``awful sorry, we have got a big order this month. We got 
to get that order out and you can't go.''
    You know, Ms. DeLoach, I think what you do--and I say this 
with all sincerity--admirable and--and the missions that you go 
on, I mean I think that is truly admirable and I say this with 
all sincerity, but there is nothing in the bill that would 
require your employer to say that if you need the second week 
of July off to go on your mission that they are going to 
schedule that.
    So, I mean, again, it takes the control--one thing that an 
employee has--I am sorry, I know I am running out of time--one 
thing the employee has is he knows if he works he is going to 
get paid.
    Whereas in this circumstance, he or she may work and they 
may not get paid when they want to get paid. That is the 
concern that I have and if we can build in some protections, 
maybe I am willing to have a little more of an open mind about 
this.
    But anyway, I thank you all very much for your testimony.
    And Mr. Chairman, thank you for indulging me. Thank you.
    Chairman Walberg [presiding]. Thank you. It was worth it 
hearing that you might have some openness to that. [Laughter.]
    Mr. Bishop. I withdraw that statement. [Laughter.]
    Chairman Walberg. I should have left it well enough alone.
    Let me recognize Mr. Sablan, for 5 minutes of questioning 
as I get back into the flow here.
    Mr. Sablan. Yes, thank you very much, Mr. Chairman.
    And good morning, everyone.
    Let me just ask some questions--let me--under the Fair 
Labor Standards Act, a person, an employee gets paid time and a 
half.
    Ms. Lichtman, may I ask you this. You get paid time and a 
half for overtime.
    Ms. Lichtman. That is right.
    Mr. Sablan. And I am assuming that when a company needs an 
employee to work overtime, and the employer decides, ``Hey, I 
need for you to stay an extra few hours''----
    Ms. Lichtman. That is right.
    Mr. Sablan [continuing]. And you get paid time and a half.
    Ms. Lichtman. Time and a half, over your regular order of 
work be at 40 hours.
    Mr. Sablan. Yes, yes I understand. Now under the bill, 
under H.R. 1406, where an employee would work overtime and in 
lieu of that get an hour for every hour worked. That is the 
proposal under 1406.
    Ms. Lichtman. What I understand is that it would be at time 
and a half but it would be for the hours you worked.
    Mr. Sablan. Okay, so it is----
    Ms. Lichtman. But it would be comp time and not paid.
    Mr. Sablan. It would be comp time. All right. So let me get 
this. A company, an employer needs for an employee to stay back 
and do extra work for some big order or something and that 
employer, employee is expected to do that. That is their job, I 
mean working for a good company. But then when they need to 
take time off they need permission also from that same 
employer.
    Ms. Lichtman. They do indeed. As to the timing and how long 
they can take and it is not necessarily, as Congressman Bishop 
was suggesting a minute ago, based on the employee's needs at 
all but as to the interest of the employer.
    So the very flexibility to the employee that this 1406 
holds out is not a real promise because it is not up to the 
employee to say when they need it, can they take it.
    Mr. Sablan. All right. And under--for public sector 
employees and now they take the leave the following week, the 
following pay period.
    Ms. Lichtman. Well, the Ninth Circuit Court of Appeals said 
that it is reasonable for an employer in the public sector to 
say that you have up to a year--and the employer decides--and 
the Ninth Circuit said that was fine flexibility in the public 
sector.
    I think we should remember about the public sector as long 
as we want to talk about equity between the private and public 
sector that the whole reason that public-sector comp time was 
put in place was because public sector employers said they 
didn't have the money, and as a cost-saving, the very thing we 
don't want to do here, as a cost-savings to employers to state 
and local governments they should be allowed to provide comp 
time. So the whole notion of public-sector comp time was to 
save public-sector employers money.
    Mr. Sablan. All right, but--so--let me then ask, employers 
may already provide work hour flexibility to employees----
    Ms. Lichtman. They certainly may.
    Mr. Sablan [continuing]. Under the Fair Labor Standards 
Act.
    Ms. Lichtman. They certainly may, you are right.
    Mr. Sablan. So we don't really need another piece of 
legislation to tell employers that they could do this.
    Ms. Lichtman. Well, I think----
    Mr. Sablan. Good employers would obviously want to work 
well with their employees, right? I mean, that is how you get 
employees to produce more.
    Ms. Lichtman. It is why I characterize this in rather stark 
terms as a sheep in--as a wolf in sheep's clothing, because I 
think indeedthe purpose of it gives employers a great deal more 
flexibility, both about the time that an employee can have and 
when they can take it.
    Mr. Sablan. Yes, and at a time when we want government off 
everybody's back, we really don't need legislation like this to 
put in another layer of government regulation on employees and 
employers.
    Ms. Lichtman. Well, there is a very little enforcement here 
so if an employee either has been denied comp time, there is 
very little in this legislation that would allow the Labor 
Department to enforce H.R. 1406. It is a major problem in here 
in that it is missing any kind of enforcement mechanism except 
it allows individual employees, salariedsalary-workers workers 
to go to court and sue.
    Mr. Sablan. All right, thank you.
    And, you know, as a delegate, Mr. Chairman, the smart way 
for us delegates from the territories is to keep silent 
actually on as many issues as we have to but----
    [Laughter.]
    Ms. Lichtman. I hope not.
    Mr. Sablan. No, but I feel strong enough--strongly enough 
about this that I remain behind and ask questions. If employees 
were given the right to take that time when they want to, 
because employers require them to work those extra hours, if 
they are also, employees, are given the right to decide when 
they want to take that time off before having to need 
permission, then like Mr. Bishop said, maybe I will be open to 
a little bit more conversation also, but right now, the way it 
is written, I don't think it is fair. Thank you.
    Thanks, Mr. Chairman.
    Chairman Walberg. I thank the gentleman. It is not fair to 
not take involvement and make expressions of ideas. We are glad 
that you do.
    Mr. Sablan. Thank you. I have a meeting with you later and 
I want to be pleasant to you right now. [Laughter.]
    Chairman Walberg. I am always pleasant accept after the U 
of M game the other night. [Laughter.]
    Mr. Brantley, those opposed to this legislation argue it 
would undermine the 40-hour workweek. Based on your experience 
with comp time at the public institutions, do you agree?
    Mr. Brantley. Mr. Chairman, I disagree. Based on my 
experience working at two different public institutions, there 
was never a circumstance where comp time could in any way have 
been construed as undermining of the 40-hour workweek.
    Chairman Walberg. Nothing was undermined in the work--in 
the employee worker relationship----
    Mr. Brantley. No.
    Chairman Walberg [continuing]. As a result of this.
    Mr. Brantley. Absolutely not.
    Chairman Walberg. Okay. Thank you.
    Ms. Phillips, your company seems to be doing all of the 
right things, at least that is what you have told us and I am 
trusting you on that one.
    When it comes to workplace flexibility practices, by and 
large, I think most employers are trying to do the right thing; 
not all, but most. You were pretty clear about the need for 
providing employers with options and flexibility and having a 
voluntary approach to comp time.
    Could you elaborate on why it is so important for 
policymakers to avoid a one-size-fits-all requirement or set of 
requirements for employers with respect to flexible work 
options?
    Ms. Phillips. Well, I think that in my experience over the 
years of working in a lot of different industries and with 
different companies, what works well in one workplace/workforce 
does not always work well in another, and I think that the 
success of a--especially small company such as mine, and many 
small companies that I have been around--is being able to 
design the workplace to have the benefits and the programs that 
matter a lot to those employees.
    That is how we attract people. That is how we keep them. 
They find a place to work that they love and we are able to 
help them develop themselves and be paid well and have good 
benefits and it is a--you know, it is a great arrangement for 
all of us.
    An example of how something won't fit one place when it 
does another is for example we do unlimited leave if you have 
the flu. It does not count against your leave balance. We do 
not require any documentation.
    Chairman Walberg. Please stay away, right?
    Ms. Phillips. Please stay away. That is right or if anybody 
in your household, anybody you are around has the flu, don't 
come to work. It doesn't come out of your balance or anything 
and you get paid.
    Nobody abuses that. That doesn't work in every environment. 
I have been in the manufacturing environment before, in a 
publishing environment. That would not work everywhere, but 
that works really well in my environment.
    So I think companies need the ability to do what works well 
for them and not have a piece of legislation that says you have 
to do it this way because then in order for us to comply we 
have got to meet those specific details and that makes us bring 
down what we do when the effort is to bring up companies that 
are not doing well at those things.
    I think that if we tout the ways this works well and other 
companies try to do those things, we would all be a lot further 
down the road toward providing a flexible workplace for our 
workforces.
    Chairman Walberg. Okay. Your testimony also highlights the 
many ways that your company helps employees navigate home and 
work demands. I am especially interested to hear your 
experience with scheduling issues. Do you often find it 
necessary to refuse requests for time off, whether paid or 
unpaid?
    Ms. Phillips. Never. The work that we do is more designed 
around the individual and what they do for a customer. So that 
is very different from a workplace that has an assembly line to 
run.
    In our world, scheduling is pretty much in a personal way 
and we have customers that work an alternate workweek. We have 
customers that may take every Friday off and do four 10s.
    We have people that have altered schedules. We have people 
that go back and forth between schedules as it works for them. 
All of that works for us as long as it is well communicated, 
well-planned, works with the customer because of all of the 
variety we have, we can arrange all sorts of things like that.
    On the----
    Chairman Walberg. Do you find though in a context with 
certain employees it is a source of disruption?
    Ms. Phillips. I am sorry, say that again.
    Chairman Walberg. In the context of your sphere of 
reference as well as well as your personal situation, do you 
find that it is a source of disruption with certain employees 
of though at times? A disruption of the operations?
    Ms. Phillips. No, because it is so individually-based. We 
are engineers, we are analysts. We are taking care of a project 
or a design and they are able to manage their work around that 
and we don't want to interfere with that. So no, what we don't 
find any disruptions with that.
    You know, in terms of amount of time that people work, we 
don't honor people that work a lot of hours. You know, I have 
worked places where people talked in the hall about so-and-so 
was here till midnight like that is the most of loyal, 
wonderful person and we see that as not good at all.
    If people turn in too many hours then our managers are 
called in and asked why because it could mean a lot of things. 
It could mean their manager isn't managing them.It could mean 
they are busy in too many meetings all day and having to do 
their work in the evening. It could mean now we are doing 
something that was not in the statement of work in our contract 
with that customer. We need to know about that. It could mean 
we need an additional person. It ususally means something not 
good.
    We don't think it is in the best interest of the person to 
work too much. We don't think it is in the best interests of 
their family for them to work all the time or the customer or 
the company. So if people work too many hours, you know, we 
have got questions as to why because it is built around an 
individual work.
    Chairman Walberg. Thank you.
    My time is expired. I now recognize Mrs. Roby.
    Mrs. Roby. Thank you.
    And I want to thank all of the witnesses today for your 
time spent here with us to weigh in on all of the issues 
surrounding the proposed bill. I think we have learned a lot 
from each of you today and so again, I appreciate that.
    I want to talk about one thing because it has come up 
several times and I think it is something that is important 
about this bill. This bill is completely voluntary on the part 
of the employee.
    The employee can either take comp time and I know it has 
been suggested that the employer would then use that and reward 
the comp time employees that have the voluntary written 
agreement in lieu of the employee who wishes to receive cash 
payments and that this accrued sick time is a better idea.
    But I want to ask you, Mrs. DeLoach, in your, in your 
current position as a nonexempt employee, do you get to just 
demand from your employee or excuse me, your employer when you 
take vacation time?
    Ms. DeLoach. No, I do not.
    Mrs. Roby. Right.
    Ms. DeLoach. I fill out a request and they have to--the 
partners have to review it and make sure that it is going to 
work with the schedule.
    Mrs. Roby. Right. So if you were to--you have to request 
from your employer--and that goes to my point exactly is that 
this idea of unduly disrupt is not a new idea in the workforce.
    In fact, it is the same standard that is applied and I want 
Ms. Phillips to weigh in on this--that is the same standard 
that is applied it to the public employees that already enjoy 
the ability to use compensatory time. Is that not correct?
    Ms. Phillips. That is correct.
    Mrs. Roby. And so this idea that this is going to be, you 
know, some coercive device is actually incorrect because the 
way that it works currently in working environments whether it 
is private employees that seek to use vacation days per their 
agreement with their employer or in the public sector where the 
Fair Labor Standards Act currently allows for compensatory time 
and Mr. Brantley, I would love for you to weigh in on this 
notion just once again that the employer is going to deny it 
every time and only allow it when it works for them because 
that is not necessarily true with vacation days or sick leave.
    Mr. Brantley. I couldn't agree more and reflecting back on 
a comment that I shared earlier, most employees have the sense 
of what their employer is trying to achieve, what the goals of 
the employer are.
    Same thing from the employer perspective is that the 
employer does acknowledge those employees and their diverse 
needs, the things that happen every single day, the 
catastrophic things that go beyond what a leave balance might 
give that employee the opportunity to partake in or to 
participate in that continues their salary.
    It is all about balance. It is all about flexibility. It is 
all about choice and the bottom line is, at the end of today, 
it is about our commitment as employers to our employees and 
meeting them where they are.
    Mrs. Roby. Right, and I will go back again to Ms. DeLoach, 
you were asked a question, ``is this a benefit to you?'' The 
employer wants to provide opportunities to keep their employees 
happy.
    It keeps up morale and productivity and to suggest that 
this is construed more in a negative sense than it is in the 
positive, again, this already happens to the public sector.
    It is not like this is some new thing and in fact, the 
protections in this bill far exceed those for the public 
employee and even providing time and a half in hours versus the 
1 hour allowed in the law currently for the public sector. So 
if you want to expand on that, and then Ms. Phillips I will 
give you an opportunity as well.
    Ms. DeLoach. I do. I would like to say that one of the 
reasons is that I have remained where I am working is that the 
people that I work for have integrity and that means a lot to 
me.
    And whether an employer does or doesn't have integrity 
right now they could be taking advantage of employees in other 
ways. What is going to keep them from doing that? Their 
conscience? That would be a good one. And if not that, then 
fines, penalties, audits, lawsuits.
    The same measures that employees who are upset about being 
taken advantage of in other areas would be available to someone 
who feels like their employer is abusing the issue of comp 
time.
    I just don't see--I don't see why this is creating problems 
particularly when it has been running for nearly 30 years in 
another sector. If it is a big bad monster I don't understand 
why it hasn't already been--had its head chopped off.
    Mrs. Roby. If it is good for one, why is it not good for 
another?
    Ms. DeLoach. Exactly.
    Mrs. Roby. Thank you.
    My time is expired. I yield back.
    Chairman Walberg. I thank the gentlelady, and I thank you 
for introducing this legislation.
    I would like to thank the witnesses for being here. I wish 
I could have heard your testimonies. I did have the opportunity 
to read all of them and I appreciate that. It is a discussion 
that certainly is worth undertaking.
    I understand that the ranking member does not have a 
closing comment, and I will just keep mine very brief as well. 
To say that again, this is a proposal with the best intentions, 
and I am glad that Chairman Kline has asked us to bring it up 
for hearing today to begin our discussions because frankly, we 
need to do all we can to foster a workplace and a work 
environment that gives credit to good employers and good 
employees and offer more opportunities for flexibility to say 
not only do we work together, but we respect each other and we 
will provide opportunities that meet specific needs of 
yourself, your family, your health, your society, your school, 
whatever.
    And again, as it has worked in the public sector, this is 
written in such a way that it is even more voluntary with 
greater protections and enhancements as well, and so I hope 
that we can come to agreement on this and make it work in the 
private sector as well because frankly, we have too much 
disruption and we need more coming together.
    Having said that, I will now relinquish my time for closing 
remarks, the remainder, to the sponsor of this bill, Mrs. Roby.
    Mrs. Roby. Thank you again, Mr. Chairman, and thank you for 
holding this very important hearing today. You know, one thing 
that hadn't been mentioned as much today is the long history 
that this notion has in the House of Representatives.
    It has been introduced in many congresses and I think what 
we can take from that is what we have gained. All of the 
concerns that you heard from my Democratic colleagues, we have 
addressed to those in this bill, and I want to take a moment to 
run through a few of those that are worth noting because our 
greatest challenge in moving forward with this is the 
misinformation associated with this bill having been introduced 
in past conferences and the changes and protections that are 
included in this current piece of legislation that do provide 
the employee those protections.
    It has been suggested that this bill is unnecessary because 
current law already offers some flexibility in the employees' 
work schedule and while there are a number of available 
options, workers aren't able to work additional hours in one 
week and accrue paid time off, paid time off to be used at a 
later date.
    And even if an employee and an employer agree, the 
employer--if the employer were to agree to such a request, he 
or she could be sued and fined by the Department of Labor if 
there is a problem and that certainly is not what we want.
    We have heard the bill fails to adequately protect 
employees despite the fact that it includes numerous employee 
protections. For example, the decision to receive comp time is 
completely voluntary.
    Workers can withdraw from a comp time agreement whenever 
they choose and as I noted earlier, all existing protections in 
the Fair Labor Standards Act are maintained. All of them. 
Including the 40-hour workweek and how overtime is currently 
calculated.
    Additionally, paid overtime. It is up to the employee to 
decide when to use his or her comp time as long as he or she 
provides reasonable notice--and we--we have heard this concern 
numerous times--and the request time does not unduly disrupt 
the business. Again, not a new notion in current bodies of law.
    I would note that this is the same standard that is used in 
the public sector as well and I haven't heard today our 
colleagues suggest that this doesn't work for government 
employees.
    This bill also ensures all existent enforcement remedies 
including action by the Department of Labor. I know it was 
stated earlier that it was just to file a lawsuit but this 
actually includes action by the Department of Labor.
    They are available to workers if an employee fails to pay 
cash wages or unreasonably refuses to allow the employee to use 
the comp time, which again is a concern that we have heard.
    It is time that we take a law that was written during the 
Great Depression and bring it into this century. We have to 
trust workers to make decisions for themselves. The federal 
government should not stand between a worker and the 
flexibility needed to care for a family.
    And I appreciate all of the concerns stated today by my 
colleagues and these concerns, like I mentioned at the 
beginning, have been expressed for years in opposition to the 
bill. And this legislation recognizes those concerns and 
includes specific provisions.
    So our colleagues that we heard, if these certain 
protections were included in the bill that they might be 
willing to work with us, well, we should take them at their 
word because we have provided adequate protections for the 
arguments of the past.
    And as I noted in my opening remarks, we don't necessarily 
believe that this is a perfect solution to all of the 
challenges facing working families. Will it allow every 
individual to balance family and work?
    Probably not, but the Working Families Flexibility Act is 
simply one step that we here in the House of Representatives in 
this committee can take to help families thrive in today's 
economy.
    And I want to just again thank all of the witnesses for 
being here today.
    And thank you, Mr. Chairman, for including me in this 
important hearing.
    I yield back.
    Chairman Walberg. I thank the gentlelady.
    I thank each of the members of the committee, those who 
were here and those that are gone, as well as those are still 
here.
    It has been a busy day, but I am glad we have taken 
attention to this issue, and I sincerely thank each of the 
witnesses for being involved in this morning with us. You have 
been a great help.
    There being no further business before the committee, the 
committee stands adjourned.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
